<html>
<title> - ASSESSING THE IMPACT OF TURKEY'S OFFENSIVE IN NORTHEAST SYRIA</title>
<body><pre>[Senate Hearing 116-109]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-109

          INSERT TITLE HEREASSESSING THE IMPACT OF TURKEY'S
                      OFFENSIVE IN NORTHEAST SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             OCTOBER 22, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-991 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     4
Jeffrey, Hon. James F., Special Representative for Syria 
  Engagement and Special Envoy to the Global Coalition To Defeat 
  ISIS, U.S. Department of State, Washington, DC.................     6
    Prepared statement...........................................     7

 
     ASSESSING THE IMPACT OF TURKEY'S OFFENSIVE IN NORTHEAST SYRIA

                              ----------                              


                       TUESDAY, OCTOBER 22, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. James E. Risch, 
chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Romney, Graham, Barrasso, Portman, Paul, Young, Cruz, Menendez, 
Cardin, Shaheen, Coons, Udall, Murphy, Kaine, Markey, and 
Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The U.S. Senate Committee on Foreign 
Relations will come to order.
    We have an interesting hearing today, as evidenced by all 
of our interest and participation here today.
    And I would like to say good afternoon to all and thank you 
to our guests who are going to, I think, be very enlightening 
after the discussions I have had with them earlier today. And 
of course, the situation we have is quite fluid, and I am sure 
they can help us get up to date, which is difficult as fast as 
this situation is moving.
    This hearing today is intended to assess the geopolitical 
and humanitarian impact of Turkey's cross-border attack on U.S. 
interests in the Middle East, determine how best to salvage 
U.S. interests moving forward, and evaluate the state of U.S.-
Turkey relations.
    Before we talk about the current state of affairs in Syria, 
it is important to recall the path that brought us here.
    To begin, the Syrian civil war is a complex, multi-sided 
conflict that has drawn in Russia, Iran, the U.S., NATO allies, 
and other entities. Over the course of this 8-year-long 
conflict, Syria's brutal dictator, Bashar al-Assad, with the 
support of Russia and Iran, has relentlessly bombed towns and 
cities across Syria, resulting in over 500,000 deaths and 
leaving over 10 million people displaced.
    We are all aware of the many confirmed uses of chemical 
weapons by the Russian-backed Assad regime, adding to the 
humanitarian suffering and violations of international law. The 
Syrian, Russian, and Iranian regimes now hope to build upon the 
successful defeat of the self-declared Islamic caliphate and 
expand their control over the northeast of Syria. These are the 
circumstances we find ourselves in today.
    Beginning in 2011, the Islamic State took full advantage of 
the chaos in Syria to gather its strength. The group's 
ascendance was accompanied with a nearly unprecedented level of 
cruelty.
    By 2014, ISIS had gathered enough strength to spill over 
the Syrian border into Iraq. ISIS captured huge swaths of 
territory and declared the formation of its so-called 
caliphate. The world watched as the Yazidis faced slaughter on 
Mount Sinjar. Iraqi soldiers were marched to mass graves in the 
Camp Spiker massacre. Women and children were sold into 
slavery. Execution videos made by ISIS were packaged as 
recruitment materials.
    After several false starts, the United States led a Syrian 
Kurd and Arab fighting force and a 91-nation coalition intent 
on defeating the caliphate. With a limited number of boots on 
the ground, U.S. and coalition air power, coupled with an 
effective Kurd-based ground force, forced the territorial 
defeat of ISIS. The heavy Kurdish involvement in the defeat of 
ISIS has come at great cost. Nearly 11,000 Syrian Kurds have 
been reported killed and many more wounded.
    That brings us to the present day. Turkey's relationship 
with the region's Kurdish population has been fraught for 
centuries and particularly over the last three decades. U.S. 
support for Syrian Kurdish fighters in the war against ISIS 
created massive tensions in the U.S.-Turkey relationship. 
Turkey views the Syrian Kurds as an extension of the insurgency 
group known as the Kurdistan Workers' Party, or the PKK, which 
has fought an insurgency against Ankara for the past three 
decades. On and off violence has affected the citizens and 
country of Turkey for years, which is why the U.S. has worked 
for months to help address Turkey's security concerns.
    Let me be clear. Turkey's misguided invasion into northern 
Syria now threatens to unravel all the progress the U.S. and 
our partners have fought so hard to achieve.
    ISIS is defeated, but elements remain that could 
reconstitute and pose a threat to U.S. national security 
interests and those of our allies in the region.
    Our counterterrorism concerns emanating from Syria and the 
surrounding region remain very real. Continuing regional 
conflict and instability, coupled with opportunities to 
establish sanctuary space, creates conditions for ISIS revival 
with the potential to attack the U.S. homeland and our allies. 
Absent continued counterterrorism pressure, ISIS is likely to 
return whether in Syria or elsewhere. Only through vigilance 
will we keep ourselves safe. Partnership with the Kurds will 
remain an important part of that strategy.
    Turkey has assured us they will continue to battle the 
Islamic State. To say the least, I remain skeptical of Turkey's 
counterterrorism guarantees. We have tread this ground before. 
We have offered Turkey the opportunity to combat ISIS and its 
affiliates. Turkey has promised to provide forces to combat 
ISIS. But Turkey has failed to follow through with those 
forces. Worse, sometimes the forces in question had 
questionable ties to jihadist or al Qaeda-linked groups.
    The fact of the matter is that Turkey's primary concern is 
its decades-old struggle against PKK. Countering ISIS falls 
much further down Turkey's list of priorities.
    In addition to sacrificing our gains against ISIS, Turkey's 
actions threaten further instability and chaos in a country 
that has already suffered years of destruction and devastation. 
Reports of Syrian and Russian troops occupying abandoned U.S. 
positions underscore that Turkey's actions have opened the door 
to Assad and his Russian and Iranian backers. Additionally, the 
humanitarian toll of this incursion has been swift and severe.
    The U.S. withdrawal has created an opportunity to be 
exploited by Russia. Indeed, on the day the U.S.-brokered 
cease-fire is set to expire, President Erdogan met with 
President Putin to discuss the future of Syria today. U.N. 
Security Council resolution 2254, the framework for a political 
resolution in Syria, a cease-fire, formation of a 
constitutional committee and free elections, remains very much 
in doubt with Putin's high level of involvement. We should very 
strongly discourage unhelpful parallel talks and instead 
reinvigorate the U.N.-brokered process on Syria's future.
    ISIS detainees and foreign terrorist fighters, many of them 
at makeshift prisons, add to the complexity. We have already 
seen reports of breakouts at the al Hol camp. Further release 
or escape of battle-hardened terrorists, particularly high 
value individuals, will only serve as a strategic boon to ISIS 
and swell their ranks.
    Finally, there is the broader issue of U.S.-Turkish 
relations. Prior to the Syrian invasion, Turkey's increasingly 
autocratic posture and dangerous tilt toward Moscow was a cause 
for serious concern. That remains a concern today. Turkey has 
imprisoned Americans and U.S. consulate employees. It has 
jailed more journalists than anywhere else in the world. It 
also recently purchased and accepted delivery of the Russian S-
400 missile defense system despite the loud protests of 
Turkey's closest allies. Now we are forced to confront a Turkey 
that acts blatantly against U.S. national security interests 
and brutally attacks U.S. regional partners over our most 
strenuous objections.
    While I appreciate efforts to reduce the violence through 
negotiations, if Turkey maintains its aggressive path, it must 
bear a cost for undermining U.S. security interests. That is 
precisely why Ranking Member Menendez and I have written 
legislation to sanction, block arms sales, and impose costs on 
Turkey if it continues its ill-advised Syria invasion.
    I took a little liberty by saying the Ranking Member and I. 
There were many members of this committee who had input into 
this. I want to compliment the staffs of both the majority and 
the minority for working so hard on a bill that we think is a 
good bill. It is still a work in progress. We have a number of 
other fronts that have been opened up with other bills being 
offered. In fact, some members of this committee have partnered 
on some of those bills. I would urge when these kinds of things 
happen, that we try, as best we can, to act as a committee. We 
are much stronger when we are together, and I think that a bill 
that comes out of this committee with a real push from the vast 
majority of the committee would be very helpful. And we hope to 
be able to move the bill that we are working on and continue to 
work on today in the very near future.
    Ambassador Jeffrey, DAS Palmer, I would appreciate hearing 
your thoughts on this current crisis and its future 
implications. I appreciate your time and thank you for your 
attendance here today. I hope you can provide some guidance on 
how the administration intends to tackle this difficult 
situation and provide some ideas for a constructive path for 
the U.S. Congress to take moving forward.
    With that, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. First of all, 
let me thank you for holding a hearing as quickly and as 
propitiously as this one. I think that the urgency of now, as 
it relates to Syria and our interests, cry out for a hearing 
like this, and I appreciate and applaud your quick response to 
it.
    I want to thank Ambassador Jeffrey and Deputy Secretary 
Palmer for coming before the committee. Ambassador, I 
understand you came out of retirement for this post. And I am 
not going to suggest you need a mental check.
    [Laughter.]
    Senator Menendez. And I applaud your commitment to serving 
our country. I think it is incredibly important.
    Ambassador Jeffrey, we understand that you and Ambassador 
Satterfield and the rest of our diplomatic corps and military 
leaders on the ground had spent the past months doing the work 
of diligent diplomacy, balancing an increasingly belligerent 
NATO ally and a militia force in pursuit of defeating ISIS in 
Syria.
    However, your recent efforts in my view were hamstrung from 
the outset since December--December--of last year when 
President Trump made abundantly clear that he was more swayed 
by President Erdogan's manipulative threats and persuasions 
than by advice from his own diplomatic and military corps.
    Indeed, the President's decisions over the past month are 
yet another betrayal of U.S. foreign policy to Russia. A 
betrayal of our Kurdish partners who fought and died alongside 
us in the battle against ISIS, who are now throwing in their 
lot with the Russian- and Iranian-backed Syrian government, the 
regime that barrel bombed and gassed its own citizens and uses 
ISIS as a political tool. A betrayal of our ally Israel, as the 
current chaos further empowers Iran's pursuit of a land bridge 
from Tehran to the Mediterranean. And a gift to ISIS, which has 
been given the time and space to regroup, as well as thousands 
of civilians continuing to flee even under this so-called 
ceasefire.
    Everyone in the region is recalibrating their relationship 
with the United States. As thousands of Kurds, who we once 
called partners, pelt U.S. troops with rocks and potatoes, 
President Erdogan held a press conference with President Putin 
today in Sochi where he said "we will continue to make big 
steps with my dear friend, Mr. Putin, to provide the long-
lasting peace and stability to Syria." That betrayal is fully 
in view in that press conference where Russia has agreed to 
join Turkey in cutting a swath of land for Turkey that 
ultimately, at the end of the day, is a cleansing of Kurds who 
have historically had this land as part of where they have 
lived going back in time.
    As the pause in hostilities expires as we sit here, it is 
clear that the United States has been sidelined. Russia and the 
murderous Assad regime are calling the shots. We do not even 
have clarity about whether, where, and how many U.S. troops 
might remain. If there was any doubt before, Erdogan's 
intentions are clear: an ethnic cleansing mission in 
northeastern Syria at the expense of broader regional 
stability, including the fight against ISIS, and of partnership 
and cooperation with the United States and other NATO allies.
    NATO members commit to upholding principles laid out in the 
articles of the North Atlantic charter, including solidarity 
with allies in the alliance, as well as dedication to 
democratic principles and practice. In recent years, Turkey's 
behavior has belied nearly every single one of those 
principles. Purchasing the S-400 air defense system from NATO's 
main opponent, Russia, and developing increasingly close 
relations with the Kremlin. I know that I hear the majority 
leader and even some of my colleagues suggest we have to worry 
about not pushing Turkey into Russia's arms. They are there. 
They bought the S-400. They could have bought the U.S. Patriot 
missile system, interoperable as a NATO ally. They were meeting 
with Russia and Iran in Astana about the future of Syria, and 
they strike a deal with Russia to ultimately pursue their 
interests.
    Erdogan has cracked down on human rights and eroded 
democratic institutions in his country. The most journalists 
imprisoned anywhere in the world is not North Korea, Iran, or 
Russia. They are in Turkey. And Erdogan's aggression in the 
region extends to the exclusive economic zone of Cyprus where 
Turkish military ships bully international energy companies 
conducting legitimate exploration activities. And over the 
weekend, the ``New York Times'' reported on Turkey's interest 
to pursue nuclear weapons. This is not the behavior of a 
constructive democratic actor or NATO ally.
    But I am hoping we can use today's hearing to get a full 
assessment of how the United States is now pursuing our 
interests on the ground in Syria. The President's effective 
abandonment of American interests in Syria, opening the door 
for Turkey's incursion into northeast Syria, has unequivocally 
harmed American national security, potentially increased the 
threat of terrorism against the homeland and against Americans, 
and solidified Russian and Iranian political and military power 
across Syria and beyond.
    The American people are smart enough to see through the 
President's hollow claims of fulfilling a campaign promise to 
bring American troops out of the Middle East. He has simply 
moved most of the troops from Syria into Iraq where reports 
today say that leadership in Iraq is saying they cannot stay 
there and has also sent thousands more troops to Saudi Arabia 
over the past year. How is that getting out of the 
entanglements of the Middle East?
    So as we must when Presidents do not, the Congress has 
stepped in to put America's interests first. I was pleased to 
join Senators Young, Murphy, and Gardner from this committee in 
introducing a resolution condemning Turkey's actions, calling 
on the President to reconsider his decision, and calling for a 
comprehensive strategy against ISIS.
    Moreover, as the chairman has mentioned, we have worked on 
legislation to address not just Turkey's actions, but also 
calling on the administration to submit a comprehensive review 
of our counter-ISIS strategy, humanitarian and stabilization 
assistance for Kurds in Syria in areas liberated from ISIS, and 
accountability for crimes against humanity, as well as 
sanctions on Russia.
    So, Mr. Chairman, I look forward to this hearing, and I 
look forward to working with you to move this bill through the 
committee and to the floor. I think the fierce urgency of now 
continues to dictate that we move expeditiously.
    The Chairman. Thank you, Senator Menendez, and I could not 
agree with you more about the urgency of this and also the fact 
that we do need to work together because it is very obvious 
that a once strong ally in Turkey and a fellow member of NATO 
has really gone in a very bad direction and wound up in a very 
bad place. So I think it is best if we all work together to do 
this, and there are good signs that there is a lot of 
involvement from most every member of this committee.
    Ambassador Jeffrey, thank you so much for joining us today. 
The Honorable James F. Jeffrey is the Special Representative 
for Syria Engagement and Special Envoy to the Global Coalition 
to Defeat ISIS. Ambassador Jeffrey is a senior American 
diplomat with a variety of experience, having served as the 
Deputy National Security Advisor from 2007 to 2008, as well as 
the United States Ambassador to Turkey from 2008 to 2010.
    Ambassador, I think you are about as well qualified as any 
person to sit in that seat and help us wrestle with what is a 
very difficult situation and a situation that is much different 
than what you found when you were dealing with Turkey.
    So with that, the floor is yours. Please enlighten us.

STATEMENT OF HON. JAMES F. JEFFREY, SPECIAL REPRESENTATIVE FOR 
 SYRIA ENGAGEMENT AND SPECIAL ENVOY TO THE GLOBAL COALITION TO 
     DEFEAT ISIS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Jeffrey. Thank you, Mr. Chairman. Mr. Chairman, 
Mr. Ranking Member, members of this committee, it is an honor 
to be here.
    I have submitted a written statement for the record. What I 
would like to do is to summarize our views in the next few 
minutes and then answer your questions.
    As you have indicated, the focus of today's hearing is a 
tragic situation in northeast Syria, including the U.S.-Turkish 
agreement to bring about a ceasefire on the 17th of October and 
the just announced a few hours ago Russian-Turkish agreement 
for a ceasefire in other parts of that northeastern strip.
    But to understand why this happened, how the Trump 
administration has responded, and what lies ahead it is 
important to keep in mind the underlying situation, 
specifically the most horrific, destabilizing, and dangerous 
conflict of the 21st century, as Senator Risch just mentioned, 
the Syrian civil war raging since 2011. This devil's brew mixes 
together the three champions of Middle East disorder: a local 
despot, Assad, arguably worse than Saddam or Qaddafi; an 
ideological state on the march, Iran; and several variants of 
radical Islamic terror from ISIS to Al Nusra, and all exploited 
cynically by an outside power, Putin's Russia.
    Thus, all our actions in Syria are driven by our core 
objectives: defeating Islamic terror, restoring Syria to a 
civilized state, and ensuring the removal of all Iranian 
commanded forces from that country. Some argue that these 
objectives are too ambitious, but frankly, we have no other 
choice than to pursue them in order to lead the world out of 
this crisis.
    Now, in dealing with today's situation in northeast Syria, 
Turkey is obviously the immediate heavy. It has acted unwisely 
and dangerously, as you have indicated, despite, as I am ready 
to describe, warning after warning and incentive after 
incentive from this administration to choose differently, 
including a package of economic and security commitments and a 
visit to Washington. As a result, millions of vulnerable 
Syrians, our Syrian Democratic Forces, SDF, partners in the 
field in the northeast, Israel, Jordan, Iraq, and the Gulf, and 
in the end, Turkey itself through this intervention are all 
made less secure, and ISIS is made more emboldened.
    But in digging out of this mess, let us remember that with 
Turkey's actions, we face yet another all too common regional 
phenomenon, this time with a NATO State that is a major 
neighbor to a conflict feels that its existential security on 
its border is not advanced by American policies and 
unfortunately acts against them.
    As we in the administration, you in Congress, and our 
partners and allies around the world strive to overcome this 
crisis, it is critical to keep in view these larger issues and 
objectives.
    Thank you very much.
    [The prepared statement of Ambassador Jeffrey follows:]

           Prepared Statement of Ambassador James F. Jeffrey

    Chairman Risch, Ranking Member Menendez, distinguished Members of 
the Committee, thank you for inviting me here to testify on this 
important issue. As you know, I have just returned from Ankara and I 
look forward to discussing the October 17 Joint Turkish-U.S. Statement 
(October 17 Joint Statement) on northeast Syria, which established a 5-
day pause in Turkish military operations in the northeast running to 
October 22, a withdrawal of Peoples Protection Unit (YPG) forces from 
those areas controlled by the Turkish military, and if all goes well a 
more permanent halt to the Turkish operation, as well as joint Turkish-
U.S. efforts toward the population in the affected `safe zone' area to 
ensure security, decent treatment of religious and ethnic minorities 
and restoration of the security smashed by the Turkish offensive 
beginning October 8.
    The conflict in Syria has raged for over 8 years, fueled by Bashar 
al-Assad's regime and his despotic and barbaric treatment of Syrian 
citizens, Russia's continued enabling of Assad's brutality, and Iran's 
malign influence in the region.
    U.S. strategic objectives and national security interests in Syria 
remain the enduring defeat of ISIS, al-Qa'ida, and their affiliates in 
Syria, the reduction and expulsion of Iranian malign influence; and 
resolution of the Syrian civil war on terms favorable to the United 
States and our allies and in line with U.N. Security Council Resolution 
2254. A sound strategy for use of our assistance resources is key to 
achieving these goals.
    The United States has worked closely with our local partners, 
including the Syrian Democratic Forces (SDF) in northeast Syria, in the 
campaign to defeat ISIS since 2014. Our cooperation led to the 
territorial defeat of the so-called ``caliphate'' earlier this year. 
During this time, the United States and our Coalition partners provided 
assistance to restore essential services, support local security and 
governance, to alleviate humanitarian needs, and to help restore the 
local economy in areas liberated from ISIS. These efforts helped meet 
basic needs and create an area of relative stability in Syria, and 
enable the enduring defeat of ISIS elements there.
    One longstanding issue in this campaign has been Turkey's belief 
that there is no distinction between the Kurdistan Workers Party (PKK), 
which both the United States and Turkey have designated as a terrorist 
organization, and the YPG and our partner the SDF. Turkey thus views 
the YPG--a key component of the SDF--as an existential threat which 
receives support from the United States. To Turkey, our cooperation 
with and support to any of these bodies is akin to supporting a 
statelet on its southern border run by a terrorist group it believes 
has declared war on Turkey. The State Department has led efforts over 
the past year and a half to reduce that friction and achieve better 
coordination of U.S. and Turkish efforts regarding Syria.
    When President Trump announced a strong, deliberate and coordinated 
withdrawal of U.S. forces from Syria in December 2018, the 
Administration said we were transitioning primary responsibility for 
the defeat of the few remaining ISIS remnants in Syria to our allies 
and partners on the ground inside Syria.
    Beginning in January 2019, the Administration worked with Turkey on 
implementing a safe zone in northeast Syria that would prevent the 
resurgence of ISIS, protect Turkish security interests vis-a-vis the 
SDF/YPG, facilitate stabilization, and create conditions to enable the 
safe, voluntary, dignified return of refugees and internally displaced 
persons (IDPs).
    This effort culminated in U.S.-Turkish military-to-military 
arrangement in August for a security mechanism; the SDF was informed 
and supported the elements of that arrangement. The United States, 
Turkey, and the SDF all began executing the arrangement in late August. 
We believe we very quickly implemented the initial steps of the 
arrangement to create an area along approximately 140 km of the border 
region in the northeast. This included YPG voluntary withdrawal to 
approximately 5-14 km from the Turkish border of armed personnel 
generally, displacement of heavy weapons to 20 km from the Turkish 
border, U.S.-Turkish cooperation on Turkish air activity over northeast 
Syria, and joint U.S.-Turkish patrols in the relevant area.
    Turkey from President Erdogan on down disputed the conduct and 
implementation of security mechanism activities, but, more importantly, 
pressed beginning in early September for an entirely different 
concept--one Turkey had tried and failed to foist on the United States 
and, through us, the SDF since January: a 32 kilometer zone to the key 
east-west highway, M4/10, along the entire northeast from the Euphrates 
to the Iraqi border, and sole Turkish military, as opposed to joint 
U.S.-Turkish engagement on area security. Turkey also began stressing 
its desire to move up to four million Syrian refugees now in Turkey 
into cities to be constructed in the area, an initiative that went far 
beyond the scope of the military-to-military arrangement. The United 
States at every level has underlined our resolute opposition to this 
plan as a threat to our SDF partners, the fight against ISIS elements, 
and overall security in Syria.
    Indications grew in September 2019 that Turkey was planning for a 
large-scale unilateral operation. Again, all levels of the U.S. 
Government warned Turkey not to act.
    Erdogan, however, said that Turkey would soon move forward with its 
long-planned operation into northern Syria. He was told clearly, 
including by the President, that U.S. Armed Forces would not support or 
be involved, and that the United States does not endorse such actions, 
but that we would not put U.S. forces in harm's way. President Trump 
also publicly warned Turkey that the United States would take measures 
sanctioning the Turkish economy if Turkey were to take steps that the 
United States considers ``off limits.''
    Turkey launched this operation despite our objections, undermining 
the D-ISIS campaign, risking endangering and displacing civilians, 
destroying critical civilian infrastructure, and threatening the 
security of the area. Turkey's military actions have precipitated a 
humanitarian crisis and set conditions for possible war crimes. As the 
President warned Erdogan, we have used diplomatic and economic tools 
available to us to press Turkey to halt its military actions.
    On October 14, President Trump signed an Executive Order designed 
to encourage Turkey to halt its offensive military action in northeast 
Syria and adopt a ceasefire. It provides the United States with the 
authorities to deliver severe economic consequences and apply 
additional pressure if Turkey continues with this offensive. The United 
States has imposed sanctions on three senior Turkish Government 
officials: Hulusi Akar, the Minister of National Defense; Suleyman 
Soylu, the Minister of the Interior; and Fatih Donmez, Minister of 
Energy, and on two ministries, Defense and Energy. Turkey must follow 
through on its commitments from the October 17 Joint Statement with the 
United States to avoid further sanctions under this new E.O.
    The United States undertook various diplomatic initiatives to 
reinforce our sanctions, including a Presidential letter to President 
Erdogan on October 9 and a Presidential message to him 3 days later. In 
the latter we warned the Turks that the SDF was likely to turn to 
Russia and the Assad regime if Turkey continued its offensive, which 
then occurred. The President then dispatched the Vice President, 
Secretary Pompeo, and National Security Advisor O'Brien to Ankara to 
negotiate with Turkey the terms of a ceasefire and the YPG's evacuation 
from affected areas. As I indicated already, on October 17 those talks, 
including 5 hours with President Erdogan, produced a Joint Statement 
outlining a pause that will lead to a ceasefire--that Turkey and the 
YPG are adhering to--for 120 hours to allow the withdrawal of the YPG 
from the Turkish-controlled safe zone. In return, the United States 
committed not to impose new sanctions under the October 14th E.O., 
``Blocking Property and Suspending Entry of Certain Persons 
Contributing to the Situation in Syria.''. Turkey has committed to a 
permanent ceasefire upon completion of the YPG withdrawal; in return, 
the United States would lift the sanctions now imposed under the E.O. 
This solution will save lives and contribute to long-term stability in 
the region.
    Assuming the pause moves to such a longer-term halt, we will work 
with Turkey and local residents on the humanitarian and social 
commitments of the October 17 Joint Statement, cooperate with our local 
partners against ISIS even as the U.S. military continues the 
withdrawal directed by the President, and press for full implementation 
of U.N. Security Council Resolution 2254, the only hope for a long-term 
resolution of the underlying Syrian conflict.
    To these ends, we are looking to organize a number of senior level 
meetings with our international partners involved in the Defeat-ISIS 
Coalition as well as our Syria-focused group. Our intent is to re-
affirm with our Coalition partners the shared goals of ensuring that 
ISIS does not re-emerge.
    Thank you for the opportunity to testify. DAS Palmer and I look 
forward to taking your questions.

    The Chairman. Thank you very much, Ambassador.
    With that, we will hear from Mr. Matthew Palmer. Mr. Palmer 
is a Deputy Assistant Secretary, Bureau of European and 
Eurasian Affairs. He is a member of the Senior Foreign Service 
and oversees U.S. policy with respect to the Western Balkans 
and the Aegean. His former positions include posting at the 
U.S. embassy in Belgrade, Serbia, the U.S. mission in the U.N., 
as well as the National Security Council.
    And as I understand it, you are going to forego an opening 
statement, and both of you are going to take questions from the 
committee. Am I correct on that?
    Mr. Palmer. That is correct, Mr. Chairman. Thank you.
    The Chairman. Thank you.
    So with that, first of all, I want to say, Mr. Jeffrey, I 
appreciate your focus on trying to get in a better place than 
where we are. There has been a lot of debate about what was the 
precipitating factor.
    Would you agree with me that with Assad having amassed 
30,000 troops on the northern border and the heat having been 
turned up as much as it had in recent weeks and months, that 
this invasion was inevitable into Syria?
    Ambassador Jeffrey. It was a very real possibility, Mr. 
Chairman. It was not inevitable.
    First of all, we told Turkey what exactly would happen. 
They would not get very far in this offensive, and they have 
not gotten very far. As you see, they now are in ceasefire 
agreements with both us and the Russians, and we told them 
exactly how this would play out, that it made no sense to 
scramble the entire situation in northeast Syria in order to do 
something they could not attain, which is to put together under 
their own control a 32-kilometer deep, 440-kilometer wide 
security zone, as they called it, in northeast Syria, somebody 
else's country. Rather, we offered them again the incentives 
that my colleague and I can go into more detail in terms of our 
very important bilateral relationship, as well as a security 
zone that we set up and got Turkish agreement to in August with 
the agreement of the SDF, our partners in the northeast--we 
refer to them as Kurds, but it is a Kurdish-Arabic group, with 
one portion of the Kurds supporting it, but we call it the SDF. 
I think that is the best term--with the SDF in agreement to 
allow patrolling of Turkish and American joint units down to 30 
kilometers and the withdrawal of the YPG, which is the more, if 
you will, PKK-oriented part of the SDF, from the immediate area 
of the border.
    That was a deal that not only was on the table that we were 
executing until Turkey decided in October to go for broke with 
this offensive despite, as I said, warnings not to do this all 
the way up to President Trump.
    The Chairman. Thank you.
    What is your prognosis as far as attempting to put the 
genie back in the bottle and back up to what was offered to 
them in the first place?
    Ambassador Jeffrey. I have to caution everybody that I have 
been wrong at least as much as I have been right in predicting 
things on Syria. I think we are in a better place now than we 
were a week ago. We have an agreement with Turkey that is about 
to--actually as I am speaking--the 120 hours that we agreed on 
Thursday for the YPG forces to withdraw from an area that was 
controlled by Turkey. That was the term we used, where the 
Turkish forces had been as of last Thursday, essentially the 
central 130 kilometers of this 440-kilometer zone in the north 
of Syria between the Euphrates and Iraq.
    The YPG was to withdraw during that period. The Turkish 
military was to maintain what was called a pause. And at the 
end of that--that is now--the Turkish military is to go to a 
halt, a more permanent essentially ceasefire, although the 
Turks did not want to use that word.
    Meanwhile, we promised during that 120 hours not to put on 
any new sanctions on Turkey under the executive order on 
sanctions on Syria that we distributed on the 14th of October. 
And with this commitment, if it is met by the Turks, we will 
then lift those sanctions that we did put on three Turkish 
ministers and two Turkish ministries.
    Meanwhile, basically taking a page from what we had done, 
Putin and Erdogan got together in Sochi, Russia today to come 
up with a similar ceasefire in many regards for the rest of 
northeast Syria, except the Turks got even less, the ability to 
patrol with the Russians 10 kilometers deep and a potentially 
not particularly believable Russian commitment to get the YPG 
out of that area.
    So Turkey has not really gained all that much from this, as 
I said, but in the process has scrambled the entire northeast, 
undercut our efforts against ISIS, and brought in the Russians 
and the Syrian regime forces in a way that is really tragic for 
everybody involved.
    The Chairman. Senator Menendez?
    Senator Menendez. Ambassador, did you advise the 
administration to green-light, in essence, Turkey's intentions 
and desires to invade in Syria?
    Ambassador Jeffrey. I certainly did not, Senator, but 
nobody in the administration green-lighted the Turkish----
    Senator Menendez. So in December when the President made 
the remarks that, well, you know, and indicated he wanted to 
get out, which caused the Senate to cast a vote to try to 
dissuade him, as well as colleagues particularly on the 
Republican side to speak to the President, was that not already 
the beginning of the end? And then the decision.
    Were you consulted about the removal of troops as 
precipitously as they were?
    Ambassador Jeffrey. The President then in February modified 
his decision and agreed that we would keep a residual force on.
    Furthermore, in December, when the President said he would 
withdraw ground troops from that area, he said he would 
continue to maintain them in al-Tanf in the south of Syria and 
that we would maintain air support over the----
    Senator Menendez. But that has all changed. He is talking 
about taking everybody out. Now he is maybe leaving a couple 
hundred around oilfields.
    So my question is, were you consulted about the withdrawal 
of troops, as was recently done?
    Ambassador Jeffrey. I personally was not consulted before--
--
    Senator Menendez. You were not consulted even though you 
are the Special Envoy here in the context of Syria.
    Let me ask you this. Is it not fair to say that the SDF has 
been a reliable partner in the fight against ISIS?
    Ambassador Jeffrey. Absolutely, Senator.
    Senator Menendez. Is it not fair to say that we cannot 
achieve an enduring defeat of ISIS through air power alone 
without some type of ground forces?
    Ambassador Jeffrey. We need ground forces. They do not 
necessarily have to be American, Senator.
    Senator Menendez. That is right. And this is exactly the 
point. It was the Kurds who were largely our ground forces. It 
is the Kurds that lost about 11,000 to 13,000 of their people. 
It is the Kurds that were detaining over 10,000 ISIS fighters 
and families for us. So it does not have to be us. But when you 
betray the entity who you were fighting on the battlefield with 
and you basically leave them when you are finished using them 
and say, you know, you are on your own, it is a hell of a way 
to send a global message that, in fact, do not fight for the 
United States because when they are finished with you, they 
will let you die on the battlefield.
    Is it not true that U.S. troops would be at risk of 
significantly higher casualties in fighting a resurgent ISIS 
without SDF partners or some similar partner?
    Ambassador Jeffrey. Absolutely, Senator.
    Senator Menendez. Is it not true that the SDF has now 
sought military and political protection from Bashar al-Assad 
Russian-and Iranian-backed government?
    Ambassador Jeffrey. They have come to an agreement in 
certain areas to coordinate. That is true.
    Senator Menendez. Is it not true that we have a greater 
risk of creating a vacuum where Iran can ultimately position 
itself to build its long-sought land bridge to the 
Mediterranean, which is a threat to our ally, the State of 
Israel?
    Ambassador Jeffrey. At this moment, we are looking at all 
of our political, military, and economic options to avoid just 
that, Senator, under this new circumstance.
    Senator Menendez. Well, I do not know what our options are 
when we get out, we do not have any guarantee on airspace that 
we are going to be able to use airspace for any missions 
whether it be anti-ISIS or defending our ally, the State of 
Israel. I do not know what guarantees there are.
    Is it not fair to say that Iran is not an agent of Russia? 
Russia is not going to be able to tell Iran thank you for 
fighting, get out now.
    Ambassador Jeffrey. You are absolutely right. Iran and 
Russia have divergent interests in Syria. Unfortunately, both 
of them are allied against our interests and supporting 
Assad's.
    Senator Menendez. Now, in the midst of facing, according to 
the Department of Defense Inspector General, that there are 
still 14,000 to 18,000 ISIS fighters despite this conversation 
consistently about ending the caliphate, and these other 10,000 
that are detained, which if the Kurds have to just defend 
themselves, they are not going to be busy detaining ISIS 
fighters. That is potentially a hardened force of 30,000 if 
they reconfigure it together.
    What is our plan to defeat them and to end that threat?
    Ambassador Jeffrey. For the record, it is the SDF which is 
about 50 percent Arab. It is the Arab-Kurdish coalition in the 
SDF that is still maintaining control over essentially all of 
those detainees, the 10,000 you mentioned, Senator. That is an 
accurate figure.
    The 14,000 to 18,000 are scattered in, if you look at the 
map, three areas: as you are looking at it, Iraq particularly 
the Sunni Arab areas, the northeast that we are talking about 
today, and the rest of Syria more or less under the control of 
either the Syrian Government or the Turks in the northwest.
    In those Assad-controlled areas of Syria, ISIS is running 
amuck without much control. We do some air strikes into there, 
but it is not really an area we can have a whole lot of action 
on other than to monitor it and, as I said, strike when we have 
a good target.
    In the northeast--that is the area that we are focused on--
we are going to work with the SDF. That is our plan. The SDF 
leader, Commander Mazloum, has committed to us that he wants to 
continue working with us, and that is what we are looking at 
the options that I mentioned earlier right now urgently.
    And in Iraq, we are continuing to work with the Iraqi 
Government and with the coalition of some 20 or 30 nations from 
around the world to keep ISIS under control there.
    Senator Menendez. Now, Ambassador, I have a deep, deep 
respect for your service, and you are dealt the hand you are 
dealt and that is what you do as a career person.
    But let me just say they are running amuck under the Assad-
controlled area. We still have the expectation that the SDF, as 
they fight for their lives, is going to be fighting ISIS for 
us. That is an incredible expectation. And in Iraq, the forces 
that we are transferring out of Syria there--we are being told 
by the Iraqis they are not going to be able to stay.
    So I do not see a strategy or a plan that will make sure 
that the homeland is secure against a potential of a resurgence 
of ISIS that is a threat to the national interests and security 
of the United States. And I hope to see it, but I do not see it 
as of now, which is why we have asked--we think it is only fair 
that all Members get a briefing from the Secretary of Defense, 
the Secretary of State, and the CIA Director about the dynamics 
of this. And we cannot seem to get a briefing. Something is 
wrong when we have such a major national security interest and 
Members of the U.S. Senate, both Democrats and Republicans, 
cannot get a hearing. I hope you send the message back to the 
administration. That is not acceptable.
    Ambassador Jeffrey. Yes, sir.
    The Chairman. We are going to break here for a few minutes. 
There are two votes. We will vote on the end of the first one, 
which has now past, and the beginning of the second one, and 
then we will reconvene due to the importance of this hearing 
and everyone wanting to get their thoughts in. So with that, 
the committee will be at ease.
    [Recess.]
    The Chairman. The committee will come to order. I apologize 
for the delay, but that is what happens when you are trying to 
walk and chew gum at the same time, which we can occasionally 
do and sometimes cannot.
    We have got another vote going on, but instead of breaking, 
I think what we will do is rotate the chair so that everybody 
can break.
    But in the meantime, Senator Romney, the floor is yours.
    Senator Romney. I appreciate very much the testimony of 
those who are here today. Ambassador Jeffrey, your lifetime of 
service to our diplomatic efforts, as well as our military, is 
remarkable and greatly appreciated. We obviously get defined by 
events we might not have imagined, and this is one of those 
times for our country and, of course, for you as well.
    I am going to ask a few questions briefly and then get to 
something of more substance, but maybe some yes or no if 
possible.
    Were you on the phone call with President Erdogan along 
with our President?
    Ambassador Jeffrey. I was not, but I was very thoroughly 
briefed on it, Senator.
    Senator Romney. And were you consulted before the decision 
was made to withdraw our troops?
    Ambassador Jeffrey. I was consulted on the framework of 
that call, the points that the President was going to make and 
such. The specific decision to withdraw our troops has been a 
longstanding debate within the administration going back to 
early 2018.
    Senator Romney. But were you advised about the decision to 
withdraw all of our troops following that Erdogan call?
    Ambassador Jeffrey. That specific decision I was not in 
advance.
    Senator Romney. Do you know when the Kurds were informed of 
our decision to withdraw our troops?
    Ambassador Jeffrey. Immediately thereafter, Senator.
    Senator Romney. Thank you.
    Do you have a sense of how many Kurds have been killed 
since we withdrew our troops?
    Ambassador Jeffrey. Again, it is a mix. In fact, the area 
that we are talking about that the Turks went into is a largely 
Arab area. And I do it myself. I use the shorthand ``Kurds.'' 
But we are talking about the SDF and the YPG, which are mixed 
groups. But in that area, it is probably in the low hundreds of 
killed in the fighting up to the ceasefire on Thursday.
    Senator Romney. And does ISIS remain a terrorist threat?
    Ambassador Jeffrey. Absolutely.
    Senator Romney. As I read your written testimony, I was 
impressed that it is extraordinary in a number of ways in that 
as you describe--it is on the third page of your written 
testimony at the very bottom. You say the United States at 
every level has underlined our resolute opposition to this 
plan--this is the Turkish plan--as a threat to our SDF 
partners, the fight against ISIS elements, and overall security 
in Syria.
    Turn the page, the next paragraph down. Erdogan, however, 
said that Turkey would soon move forward with its long-planned 
operation in northern Syria.
    And next paragraph. Turkey launched this operation despite 
our objections undermining the de-ISIS campaign, risking, 
endangering, and displacing civilians, destroying critical 
civilian infrastructure and threatening the security of the 
area.
    There is no discussion here of we wanted to end endless 
wars and this was the result of a long strategy of America to 
get out of the region. It was instead, based upon what you are 
saying here, Erdogan basically said we are coming in, get out 
of the way, and America blinked. Am I reading that wrong?
    Ambassador Jeffrey. Largely correctly, Senator, with one 
very, very important exception. It is not that we got out of 
the way because we were not militarily in the way. We had told 
Turkey we would oppose any such action diplomatically and 
through sanctions. President Trump was very open on that in his 
tweets, and Turkey had heard this at every level. The 
leadership either did not believe it or they thought that their 
existential security concerns overrode what we might do to 
them. And they went in despite a very carefully packaged set of 
incentives and sticks to get them to stay with the security 
agreement we had done in August with them, and suddenly 
President Erdogan told President Trump he was not going to 
stick with it and he was coming in.
    Senator Romney. But we withdrew our troops quite 
precipitously. You say that is unrelated to the fact that 
Erdogan was going to come in militarily?
    Ambassador Jeffrey. Absolutely. We had two outposts of 
about 12 men each on that whole area, but their purpose was 
basically to observe if there was any firing across the border. 
They were not a defense screen or anything else.
    The troops that the President has decided to pull back and 
have been pulled back in the Manbij area and in the Kobani 
area--they are well south and west of where the Turks came in. 
It is just that there was a danger that as the Turks, as you 
are looking at the map, would come in and as possibly Russian 
and Syrian troops because we knew that the SDF would turn to 
them came in from the west, our troops would be caught in the 
middle and their retreat path would be. So it was a prudent 
decision taken by our military leaders to get those troops out 
of the way, sir.
    Senator Romney. If one assumes that it was a good idea for 
us to withdraw troops from Syria--and I am not one of those, 
but even if one were to assume that and even if one, like 
myself, believes it is a good thing that we are apparently in a 
ceasefire setting and hopefully we will have a permanent one, 
would it not have been preferable and desirable for us to have 
negotiated a posture with Turkey and our Kurdish allies such 
that we did not have the casualties which have resulted from 
Turkey coming in in a heavy way and bombing and killing our 
allies, which has given us a terrible black eye around the 
world and has led to unnecessary casualties? Why could this not 
have been negotiated?
    Ambassador Jeffrey. Well, again, we negotiated extensively 
with the Turks, including the security zone mechanism that we 
had in August that we were carrying out with them with our 
troops and their forces. We negotiated until the very moment 
that Erdogan's troops came in. The President wrote President 
Erdogan a letter. The President then followed up with a message 
to President Erdogan urging him not to act and pointing out 
that it was likely that this would simply produce the Russians 
and Syrians coming into the northeast, which is exactly what 
happened.
    So President Erdogan, again, looking at the Russian-Turkish 
agreement and looking at our agreement from last week, the YPG 
has pulled back but has not been really defeated or eliminated 
from the game. So one Turkish objective was not achieved, and 
Turkey has not gained much territory, if that was their 
objective. And we told them all along that this would happen 
and if they did that, they would run into a great deal of 
trouble with us, thus the sanctions and the other steps we took 
against them 10 days ago now.
    Senator Romney. I would only note, Mr. Chairman, that our 
President told President Erdogan that we were pulling out our 
troops. We did so, and they attacked within a matter of hours. 
And you say those are unrelated, but it would seem to me that 
there was a relationship.
    The Chairman. Thank you, Senator Romney.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Ambassador Jeffrey, thank you for your service. We 
appreciate it very much.
    You talk about signals sent to Turkey. And I want to deal 
with the war crimes that are taking place in that country. Are 
you familiar with the Syrian War Crimes Accountability Act that 
was enacted by Congress in the National Defense Authorization 
Act?
    Ambassador Jeffrey. I am.
    Senator Cardin. And are you familiar with the report that 
was issued under that law?
    Ambassador Jeffrey. Generally, Senator.
    Senator Cardin. Well, you might want to tell us about it 
because I am not familiar with it. I am not sure I received it.
    Ambassador Jeffrey. I would have to look into it, but we 
are examining war crimes in the context of what is going on in 
Syria mainly with the regime because that has been our----
    Senator Cardin. Absolutely. And the law required the report 
within 90 days. I do not believe that was complied with. And 
you are talking about sending the right signals to Turkey.
    Do you not believe that if we would have issued visible 
information about holding those accountable for the current war 
crimes in Syria that may have acted as a deterrent to Turkey?
    Ambassador Jeffrey. I cannot speculate on that. I will say 
that if we are supposed to issue reports within 90 days on 
something serious like war crimes, we should live up to that 
requirement.
    Senator Cardin. Are you familiar with the reports that have 
been issued by the United Nations and other groups about 
expected war crimes have been committed by the Turkish forces 
in their invasion into northern Syria?
    Ambassador Jeffrey. We have seen some preliminary concerns. 
We have not seen any detailed reporting. The detailed 
reporting, of course--and there are volumes of it--is on the 
Assad regime's actions throughout Syria. But we are very, very 
concerned about what we and all of us have seen on video 
footage and some of the reports that we have received from our 
SDF colleagues, and we are looking into those as I speak.
    Senator Cardin. Well, Defense Secretary Mark Esper said 
last week that Turkey appears to be committing war crimes. Do 
you disagree with that?
    Ambassador Jeffrey. We would say that the Turkish supported 
opposition forces, who were under general Turkish command, in 
at least one instance did carry out a war crime, and we have 
reached out to Turkey to demand an explanation.
    Senator Cardin. Congress has already acted on this, making 
it clear that ``never again'' should mean ``never again.'' And 
the only way that is going to mean anything is if regimes that 
commit war crimes are held accountable and it is not just swept 
under the rug as part of any other type of resolution of a 
conflict. Do you agree with that?
    Ambassador Jeffrey. I certainly do. Whether they are foes 
of the United States or allies of ours, everybody has to be 
accountable.
    Senator Cardin. Do we have your commitment here before this 
committee today that the information concerning these actions 
will be made available, and if it rises to the level of war 
crimes, that the United States will seek an international forum 
to hold those responsible accountable?
    Ambassador Jeffrey. Within our constitutional requirements 
to carry out foreign policy, this will be a very high priority.
    Senator Cardin. That is not exactly what is said. My point 
is, are you willing to make an assurance to this committee that 
you personally will make sure that we do not just once again 
refuse to hold those responsible for atrocities accountable for 
their actions? It is a simple answer.
    Ambassador Jeffrey. We will do everything in our power as 
an administration to ensure that the world knows if there are 
war crimes and that actions are taken to see that they do not 
happen again. Absolutely.
    Senator Cardin. Well, and I would appreciate if you would 
get back to me in compliance with the law passed by Congress as 
to compliance with the Syrian War Crimes Accountability Act. 
Senator Rubio and I introduced that legislation. We expect our 
laws to be carried out. And I do think one of the consequences 
of the failure to carry out accountability for war crimes are 
more war crimes that are committed. And if we had a clear 
indication that those crimes that had already been committed in 
Syria, that there was now a process going on internationally to 
hold them accountable, I am very confident that Turkey may have 
done things differently in northern Syria.
    Ambassador Jeffrey. We will do our best to adhere to our 
legal requirements and also the spirit of what you said, 
Senator.
    Senator Cardin. You have indicated that you were not 
consulted in regards to the decision to withdraw our troops 
from northern Syria. Do you agree that the consequences of that 
encouraged or gave an ability for Mr. Erdogan to move forward 
into northern Syria and that that added to the national 
security concerns of America, which you have already testified 
to, in regards to facilitating Russia, Iran, and the Assad 
regime?
    Ambassador Jeffrey. No, I do not think that contributed to 
this very tragic decision by the Turkish Government.
    Senator Cardin. So if our troops there, if we had not 
removed our troops, you believe that we would have seen the 
same scenario with Turkey engaging American troops in northern 
Syria?
    Ambassador Jeffrey. They would not have engaged American 
troops, first of all, because it was understood that neither 
side would ever engage the other regardless of----
    Senator Cardin. Well, would it not have been different? 
Where our troops are today, Turkish forces and Russian force 
are there now. If we had our troops there today, do you think 
we would have had the same consequences?
    Ambassador Jeffrey. We had the troops there. The withdrawal 
did not take place or really start until well after the--
essentially most withdrawals of American troops----
    Senator Cardin. I understand that, but you really believe 
that Turkey was going to do this current engagement even if 
American troops were in the region, making it very likely there 
would have been a conflict between two NATO allies in northern 
Syria? That is not believable.
    Ambassador Jeffrey. Senator, let me explain this. If U.S. 
troop had been given the order to stand and fight against a 
NATO ally, I think you are right. The Turks may have thought 
twice. They have never been given that order over two 
administrations. In fact, we had told Turkey the absolute 
opposite, that we would not----
    Senator Cardin. You do not think that Turkey was holding 
back an aggression against northern Syria because of the U.S. 
presence in that region?
    Ambassador Jeffrey. No, I do not think that at all.
    Senator Cardin. Well, I will tell you you have lost me on 
the credibility of your comments. Every expert I have talked to 
on the military side has said that Turkey would not have risked 
an engagement against U.S. troops, that that was something was 
something that would never have happened.
    Ambassador Jeffrey. That is absolutely true, Senator, but 
the U.S. troops would have to have had the mission of resisting 
the Turks. They did not have that mission. And a good question 
to ask any military expert that says that is did they have that 
authority and would they have acted without that authority. I 
think the answer is no, they would not.
    Senator Cardin. Just to complete this, then you agree with 
the President's decision? As a professional, you are fully in 
accord with the President's decision to relocate our troops.
    Ambassador Jeffrey. I carry out the instruction----
    Senator Cardin. My question is--you have now said it did 
not have any effect. So do you agree with this policy or not?
    Ambassador Jeffrey. I agree that Presidents have to make 
that decision, not people in the bureaucracy such as me.
    Senator Cardin. And for the record, you did not answer my 
question.
    The Chairman. Thank you, Senator Cardin.
    Senator Rubio?
    Senator Rubio. Thank you. And I apologize if this has been 
asked before. I just wanted to get some clarity.
    The U.S. policy toward Syria, the official policy, as it 
was described--it had three objectives: prevent the resurgence 
of ISIS; number two, to give the U.S. leverage in any future 
political solution in Syria so that it would arrive at an 
arrangement that is pursuant to the Security Council resolution 
which calls for a new constitution and for a new election; and 
the withdrawal of all Iranian forces. Is that an accurate 
assessment of our Syria policy?
    Ambassador Jeffrey. It is, Senator.
    Senator Rubio. Is that still our policy?
    Ambassador Jeffrey. It is, Senator.
    Senator Rubio. Well, if that is still our objectives, I 
wanted to kind of get some background. What we all have heard 
about the concerns of a couple things on ISIS, the prisoners 
going free, the flow into Iraq potentially, but also the 
potential that they would seize some of these oilfields 
previously held by the Kurds which would provide revenue. How 
much thought or preparation are you aware of that went into 
this decision before--how much thought and preparation went 
into preventing those things from happening before that 
decision was made?
    Ambassador Jeffrey. I cannot determine how much thought 
specifically went into that. What I do know is that we were 
prepared ever since December 2018 when the President announced 
the withdrawal of U.S. forces over time to deal with the 
situation when we did not have U.S. forces on the ground. We 
were looking a coalition allies. We were looking at U.S. air 
support in the air and we were looking again with other ways to 
work with the SDF. So we had plans in place, and these plans, 
of course, are largely still in effect. The people that are 
being detained are still being detained by the SDF not by us, 
and the stabilization operations against ISIS along the 
Euphrates by the SDF are still going on. Fortunately, we still 
have our forces there----
    Senator Rubio. We would have to have known that the absence 
of a U.S. presence would make it harder for the SDF to focus on 
those priorities. They would have to make their number one 
priority facing the Turks. So was there any advance thought 
given to if we leave, here is what we are going to do to make 
sure the SDF does these or can still do these things?
    Ambassador Jeffrey. Exactly. And what we realized was we 
had to work some kind of arrangement between Turkey and the SDF 
so that the SDF would not be, as you said, diverted from the 
fight against keeping ISIS suppressed because ISIS as a state 
has been defeated since March, and sucking the forces up to 
stand off against the Turks. So that was part of our overall 
strategy. That is why we did the joint security mechanism with 
the Turks in August to get them to----
    Senator Rubio. But none of those plans are in effect any 
longer.
    Ambassador Jeffrey. No, but now we have a ceasefire that 
has replaced them.
    Senator Rubio. Well, the ceasefire expires here in a couple 
minutes. I do not know what the time is over there.
    Ambassador Jeffrey. The ceasefire under the terms of the 
agreement--we are verifying this now if both sides agree that 
it has been fully maintained. And we already have a letter from 
the commander of the SDF forces, Mazloum Kobani, that it has 
been adhered to. We are waiting for the Turkish. If so, then 
the ceasefire becomes--it is not a ceasefire. It is now a 
pause--becomes a half of Turkish military operations. So it is 
in effect a more permanent ceasefire I do think so, yes.
    Senator Rubio. So you are saying you believe that if they 
withdraw from these areas, that the Kurdish forces will still 
be able to house these ISIS killers.
    Ambassador Jeffrey. This is one that we are looking at 
whole series of options under this different set of 
circumstances, including what we will be doing with our forces 
as we continue the withdrawal, where will we be working with 
the SDF, with us, with our coalition partners, and with air 
power.
    Senator Rubio. By the way, I must ask, why would the Kurds 
even care what we want them to do any longer? We are not there 
alongside them. They have now had to align themselves with 
Assad and the regime. So why are they even interested in our 
opinion at this point about what we want them to do with these 
prisoners?
    Ambassador Jeffrey. The Kurds never fought--I am sorry. The 
SDF never fought ISIS because we wanted them to. They fought 
ISIS because it was an existential threat to them to deal with 
ISIS, and they still feel that way.
    Senator Rubio. Real quick. Let me ask you about the 
withdrawal of Iranian forces. How do we do that now? For 
example, how do we prevent Iran from seizing some of these 
oilfields--them or their aligned groups--and using it to 
generate revenue to recoup the costs of their engagement in 
Syria? But also it gives them some leverage over some of these 
Arab tribes that are in the area. So what is our plan now to 
limit that? Where do we do that from?
    Ambassador Jeffrey. It is part of an overall political 
settlement to this conflict in Syria. First of all, there are--
--
    Senator Rubio. What seat do we have at that table? We are 
not there anymore.
    Ambassador Jeffrey. We are still there, Senator.
    Senator Rubio. In the southern part, al-Tanf.
    Ambassador Jeffrey. We never placed primary responsibility 
for our overall policies in Syria on our U.S. military 
presence. That was primarily devoted to defeating ISIS, and it 
was very successful doing so. But the Turkish presence in the 
northwest, which we generally do support, is really operations 
against Iran inside Syria, which we do not talk about. The 
Israelis do not talk about. But they do continue. We are 
supportive of Israeli operations. We are very supportive of 
diplomatic and particularly economic pressure against the Assad 
regime. And our hope is that if the Assad regime wants to 
return to the international community of nations, it has to do 
certain things, and at the top of the list is inviting the 
Iranian forces to go home.
    Senator Rubio. I am out of time. Just a very quick thing 
here I want to say, and that is it is my belief that Erdogan's 
goal is not a safe zone. It is a strip of land from the Iraqi 
border to the Euphrates under his control that has few, if any, 
Kurds there where he can relocate 3.5 million Syrian Arab 
refugees back into the country. That is his real goal here. Is 
it not?
    Ambassador Jeffrey. He has said publicly repeatedly, 
including in New York at the United Nations, that is his goal 
here today. And my assessment is he is not going to get that or 
anything close to that.
    Senator Rubio. But that is what he said is his goal.
    Ambassador Jeffrey. Absolutely.
    Senator Rubio [presiding]. Senator Shaheen?
    Senator Shaheen. Thank you.
    Ambassador Jeffrey, the joint statement that you negotiated 
with the Turks does not specifically define the parameters of 
the safe zone. Can you clarify the areas where Turkish troops 
can operate according to the agreement?
    Ambassador Jeffrey. It was actually Vice President Pence 
who negotiated it. We were just there supporting him.
    That is a very good question. We never used a map. We 
basically used, at the time the thing went into effect, which 
was 2200, 10 o'clock at night, Ankara time on the 17th of 
October, wherever Turkish troops were is where the safe zone 
that we referred to existed.
    This sounds like a sloppy way to do things. It actually 
worked. The SDF/YPG forces knew what that region was because we 
had been in constant--I had personally been in constant contact 
with them throughout the negotiation. The Turks knew where 
their forces were, and that is exactly what we have seen. It 
has worked because we did not get specific because we did not 
want to challenge various Turkish interpretations of what a 
safe zone should be like. What we wanted to focus on was where 
the Turkish forces were and where the YPG forces were in that 
area. They have all withdrawn as has been reported to us, and 
the Turkish forces, with some minor changes, have not moved 
from that area. So it has worked. But it basically is 
essentially--when we did the security mechanism in August, we 
established a central block in northeast Syria along the 
Turkish border of about 30 kilometers.
    Senator Shaheen. I understand that. I am sorry to 
interrupt, but I am running out of time here.
    You are using the terms ``YPG'' and ``SDF'' 
interchangeably, and you said that the YPG have withdrawn from 
that zone. Is it true that all of SDF forces have withdrawn 
from that zone?
    Ambassador Jeffrey. That was a decision of the SDF 
commander, yes.
    Senator Shaheen. And he said that they have all withdrawn?
    Ambassador Jeffrey. He has in writing.
    Senator Shaheen. Because we had a meeting last night with 
the head of the Syrian Democratic Council who did not reaffirm 
that. She suggested that they have not withdrawn from that safe 
zone.
    Ambassador Jeffrey. One, we have a written letter to the 
Vice President from Mazloum Kobani saying that. Two, on the 
ground, we believe that that is the case. We are asking the 
Turks urgently if they have spotted anybody in that zone that 
they can point out to us. But, yes, I think that that 
commitment was--and it was for all armed personnel. He did not 
distinguish. And I think that was a good decision between the 
YPG, which is a Kurdish offshoot of the PKK.
    Senator Shaheen. No, I understand.
    That joint statement also said that Turkey and the United 
States are committed to de-ISIS and Daesh activities in 
northeast Syria, including coordination on detention 
facilities. Exactly what did the Turks commit to in terms of 
securing ISIS detention facilities and camps in northeast 
Syria?
    Ambassador Jeffrey. We began talks with them in January 
2018 after the President announced the withdrawal in December. 
And the Turks showed some interest in some staff work 
concerning detention facilities in that up to 30-kilometer deep 
zone. There are very few detention facilities right now in the 
area where the Turks are. So at the moment, the questions is 
pretty moot.
    Senator Shaheen. But they did, in fact, shell two prisons, 
Ayn Issa and Maruk, that the Syrian Democratic Forces had to 
flee from to escape the shelling. Is that correct? And 
detainees were able to escape from those two facilities?
    Ambassador Jeffrey. I will check. Ayn Issa I think was a 
displaced persons camp for people who were basically associated 
with ISIS. So they were not technically detainees, but we will 
check. But that is true. A few people did escape.
    Senator Shaheen. And so how exactly will Turkey prevent an 
ISIS resurgence? And again, what have they committed to do to 
continue to fight ISIS?
    Ambassador Jeffrey. In the area where Turkey is and, in 
fact, in the entire area along the Turkish border, 30 
kilometers deep, there is very little ISIS presence. The ISIS 
presence in the past several years has been along the Euphrates 
far to the south and in the Manbij area west of the Euphrates.
    Turkey has a fairly good record of fighting ISIS in 
northwest Syria, particularly in the al-Bab area in 2016, and I 
am sure that if ISIS showed up, Turkey would take it on as well 
because it has been repeatedly attacked by ISIS inside Turkey. 
And we will coordinate with them, as we have in the past with 
them, on information concerning ISIS and operations that they 
do and we do. We are used to doing that. But again, ISIS is not 
a major issue in that part of the northeast at present.
    Senator Shaheen. Well, I appreciate that it is not a major 
issue because with the SDF and our support, we have driven them 
out of Syria.
    Ambassador Jeffrey. Exactly.
    Senator Shaheen. But does that suggest that Turkey is not 
going to move into Manbij?
    Ambassador Jeffrey. Turkey is not going to move into Manbij 
according to the agreement that we just saw with the Russians.
    Senator Shaheen. So Russia has moved into Manbij.
    Ambassador Jeffrey. Syrian forces and some Russian advisors 
are in Manbij right now, and judging from this agreement, they 
have no intention of letting Turkey back in--not back in but 
into it.
    Senator Shaheen. And a final question. Can you speak to how 
Iran has been empowered by our decision to move out of Syria?
    Ambassador Jeffrey. Iran is under extraordinarily tough 
economic sanctions. It is under pressure from Israel, supported 
by us and other allies throughout the region. I do not see it 
being empowered particularly. The one area that Iran is 
interested in is the American forces in the south along the 
main east-west highway from Tehran to Beirut at al-Tanf, and 
President Trump has decided we will not pull out of there. I do 
not think Iran is particularly empowered by this.
    Senator Shaheen. So you do not think that our moving out 
and allowing Russia and Iran and Assad to decide the future 
fate of Syria helps to empower Iran in the Middle East?
    Ambassador Jeffrey. We have not decided on anybody other 
than the Syrian people under the relevant U.N. resolutions to 
decide the fate of Syria, and we certainly have not handed it 
off to these guys.
    Senator Shaheen. We may have, but we are not there anymore 
and Russia and Iran are there. And so is Assad. So I think it 
is----
    Ambassador Jeffrey. Again, the U.S. Air Force is very much 
there right now. And that is now something that the Department 
of Defense and the White House are looking at. Our military 
forces are still in al-Tanf and plan on being there.
    But honestly, I am a diplomat. This is the Senate Foreign 
Relations Committee. Military power is not the only tool we use 
to achieve our goals in this world. We use diplomatic. We use 
political. We use economic.
    Senator Shaheen. No, I understand that. But when we pulled 
out the troops, we had earlier pulled out our diplomatic 
personnel, our USAID personnel. We had stopped--this 
administration had stopped the stabilization funding that 
Congress appropriated last year so that it did not go into 
Syria. And so the other tools that we have to support a 
solution in Syria have also been taken away.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Johnson?
    Senator Johnson. Mr. Ambassador, thank you for your 
service.
    Chairman Risch started out his questioning or his opening 
statement with a little bit of a history lesson. I want to 
throw a couple more details in here.
    The Arab Spring protests in Syria began in the spring of 
2011. At that point in time, Syria's population was almost 21 
million. Today, some estimates places it as low as 17 million. 
Over 5 million Syrians are refugees. Over 3 million, I believe, 
are in Turkey. There are about 6.5 million Syrians displaced 
within Syria. So you have more than half the population out of 
their homes, and it is a mess.
    By some estimates, there were already 100,000 Syrians 
killed in the conflict by the end of 2013.
    In June 2014, ISIS moves in and takes over Mosul.
    Aleppo finally falls in December 2016 after all the barrel 
bombing.
    By the time this administration took office, approximately 
300,000 people had been killed in the Syria Civil War. Iran, 
Russia, Assad pretty well won the war.
    The Kurds obviously joined us in defeating ISIS because 
they were able to take over about a third of Syrian territory. 
Correct?
    Ambassador Jeffrey. Mainly, as I said, because they had an 
existential threat from ISIS, but in the process, they took 
over about a third of Syria.
    Senator Johnson. One of my questions--we talk about 
leverage. Now we do not have leverage. What leverage did we 
have, let us say, in January 2017 after Aleppo fell and Iran, 
Russia, and Assad were already pretty much in control of two-
thirds of Syria?
    Ambassador Jeffrey. First of all, we had the leverage of a 
totally broken state, which is what we still have today. Your 
statistics are absolutely right, Senator. About half the 
population of Syria is not under Assad's control. Much of the 
area of Syria is not under Assad's control. That includes much 
of the northwest, and we will see how it goes in the northeast 
in the days and weeks ahead. Some of it is under Turkish 
control right now. As I said, the SDF and we are still to the 
south of that 30-kilometer deep band. So that is pressure on 
him.
    Again, Assad has Israel and the Iranians have Israel to 
contend with in basically a silent war in the skies and on the 
ground in Syria.
    And the country is an international pariah. It has been 
ejected from the Arab League. There is no reconstruction 
assistance flowing into that country from anywhere, and we have 
no difficulty mobilizing international sentiment in the U.N. or 
anyplace else against Assad until blocked, of course, by 
Russia.
    Senator Johnson. So my concern is I do not want to see an 
ethnic cleansing. I do not want to see ISIS fighters released. 
I do not want to see ISIS reconstituted. You in your testimony 
already said that the SDF and Turkey, quite honestly--it is in 
their best interests to make sure that ISIS fighters do not 
regain the battlefield. Correct?
    Ambassador Jeffrey. Both Turkey and SDF have fought against 
ISIS in certain areas, particularly in the case of Turkey. 
Effectively SDF has always been effective. If they are not 
forced to face off against each other, we can rely on both of 
them against ISIS.
    Senator Johnson. Where do the 3.3 million refugees from 
Syria reside in Turkey now? Where did they come from?
    Ambassador Jeffrey. They came mainly from the Arab areas. 
There are about 300,000 Kurds who fled because they are 
politically not aligned with the essentially pro-PKK sentiments 
of the PYD, which is a political ring of the YPG, the military 
force. But most of them came from the Arab areas, the Aleppo 
area in particular, all the way down to the Jordanian border. 
They fled across into Turkey.
    Senator Johnson. So the SDF and the Kurds--are they just 
primarily protecting the region in Syria that they always 
occupied, or have they moved into Sunni areas that the Sunnis, 
if they ever could return from refugee status into Syria--you 
are going to have a dispute in terms of who owns what.
    Ambassador Jeffrey. The YPG, which was the Kurdish militia 
that we joined up with, as I said, that has ties to the PKK, as 
it spread out into Arab areas with our encouragement in the 
fight against ISIS down along the Euphrates into Manbij, 
renamed itself in 2017 SDF, Syrian Democratic Forces, to 
reflect the fact that it is now an Arab, as well as Kurdish 
force. But, yes, their motivation was to take out ISIS. In the 
process, they wound up with a lot of territory which is not 
uncommon in war.
    Senator Johnson. Precisely. But is that going to be a 
festering problem when we hopefully at some point in time 
stabilize Syria? Now you have 5 million refugees trying to 
return to Syria. Some are going to be basically squatting in 
their homes?
    Ambassador Jeffrey. That was on our top 10 list of 
festering problems, the idea that we had a largely Kurdish-led 
force over a pretty significant Arab population, but it was not 
one of our top five festering problems.
    Senator Johnson. One of the things I was concerned about is 
are we going to maintain a no-fly zone, in effect. According to 
your testimony, it sounds like we are willing to do that. Is 
that true?
    Ambassador Jeffrey. We are doing that at the moment. We 
still control, as they say in military terminology, the 
airspace at least over our forces, which is much of the 
northeast. How the thinking is in the Pentagon and what we are 
going to do in the days ahead I am not fully abreast of, but 
when they have sifted out their options, they will share them 
with us.
    Senator Johnson. Well, I would certainly encourage the 
administration to maintain that no-fly zone. I think that would 
be one of the ways we could prevent ethnic cleansing and 
further slaughter.
    Thank you, Mr. Ambassador.
    Senator Rubio. Senator Coons?
    Senator Coons. I would like to thank Chairman Risch and 
Ranking Member Menendez for convening this important hearing, 
and I would like to thank both of you for your service.
    No one wants to see American troops continuing to serve and 
to fight in the Middle East and Southwest Asia indefinitely. 
But President Trump's abrupt, premature, and ill-considered 
withdrawal and utter lack of a strategy for the path forward in 
Syria I think will prove to be both a tactical and strategic 
blunder, and I think his abandonment of the Kurds will long 
stand as a stain on America's reputation.
    I am principally concerned, Ambassador Jeffrey, if I can, 
initially in asking you about ISIS because one of my core 
concerns is not only have we ceded territory and control to 
Assad's forces, supported by Russia, to Iran and Iranian 
irregulars, but we also may have breathed new life into ISIS.
    I was struck that in your prepared testimony you said--and 
I quote--U.S. strategic objectives and national security 
interests in Syria remain the enduring defeat of ISIS, the 
reduction and explusion of Iranian malign influence, and the 
resolution of the Syrian civil war on terms favorable to the 
United States. On all three of those vectors, I think this 
decision makes us worse off.
    Let me first ask about ISIS. Do we know how many hardened 
ISIS fighters escaped detention?
    Ambassador Jeffrey. We do not have hard numbers, but it was 
very few so far but that could change. But for the moment, very 
few.
    Senator Coons. Is ``few'' dozens or hundreds?
    Ambassador Jeffrey. I would say dozens at this point.
    Senator Coons. There were press reports that put it in the 
hundreds. Do we have any idea how those escaped ISIS fighters 
will be tracked, accounted for, and recaptured?
    Ambassador Jeffrey. At the moment, we do not.
    Senator Coons. How many ISIS fighters do you believe are 
still in detention in a detention facility that is managed 
either by Kurdish fighters or otherwise?
    Ambassador Jeffrey. Essentially the numbers we had before, 
Senator, about 10,000.
    Senator Coons. About 10,000. So how secure are those ISIS 
fighters?
    Ambassador Jeffrey. As long as the situation remains 
relatively stable and we think we have returned it to something 
like stability----
    Senator Coons. Would you describe this as a stable 
situation?
    Ambassador Jeffrey. Since Thursday when we got a ceasefire, 
yes.
    Senator Coons. So what confidence do you have that those 
10,000 ISIS fighters are secure and are being appropriately 
monitored even as the SDF is in full retreat, the United States 
is largely retreating, and a combination of Turkish, Russian, 
and Syrian forces are flooding into an ill-defined area?
    Ambassador Jeffrey. Once again, throughout the vast 
majority of northeast Syria, SDF forces are in control of the 
terrain and the detention centers that are located. Most of 
them are below a 32-kilometer east-west highway.
    With this new Russian agreement, there may be some 
detention facilities in that area. And as they are calling for, 
the Russians are claiming that they will work, facilitate 
trying to get the YPG elements out. We will have to see how 
that goes on. But for the moment, these detention facilities 
are being maintained. We have commitments by the SDF, and we 
have learned to have faith in their commitments.
    Senator Coons. Should the SDF have faith in our 
commitments?
    Ambassador Jeffrey. We gave them a commitment that we would 
do everything in our power to forestall any Turkish incursion 
into northeast Syria. We did not succeed in that, obviously. 
What we did succeed in doing is very quickly bringing it to a 
halt by the negotiations we did and the ceasefire achieved on 
the 17th of October.
    Senator Coons. Would the press report today that Kurdish 
civilians are pelting our departing troops with rocks and food 
suggest that we have won over their enduring trust?
    Ambassador Jeffrey. That was in Qamishli. The troops were 
withdrawing, because this is our priority, from that area, 
which is far to the west. Whether those were Kurdish children 
or those were Arab children and whether the regime is also 
there we would have to look into whose idea that was. That is 
the only place I have ever seen stones and fruit thrown at our 
soldiers anywhere in the northeast, and again, as that is an 
area that the Assad regime has forces in, we need to look into 
that in more detail.
    Senator Coons. Well, Ambassador, there is fairly broad 
reporting that American troops who served alongside our Kurdish 
partners, that military leaders, that intelligence community 
leaders, and that the leaders of the Syrian Democratic Forces, 
the Kurds themselves, have all agreed that this was a tragic 
mistake, that this was a betrayal of the trust that they put in 
us.
    I will close by asking what you see as the future of NATO's 
role in Turkey and the United States-Turkish relationship. In a 
previous exchange with another Senator, the way I heard you 
characterize it was essentially our President got rolled by an 
aggressive President Erdogan who said I have got my troops on 
the border. I am ready to go. And after months of our asserting 
they should not do it, they simply went ahead and did that. 
This is supposed to be our NATO ally. What do you see as the 
future of our alliance with Turkey?
    Ambassador Jeffrey. We need to have some serious 
conversations with Turkey over this.
    But the President did not get rolled per se. As soon as the 
Turks came in, the President enacted a very, very----
    Senator Coons. He enacted a prompt and speedy withdrawal?
    Ambassador Jeffrey. No, a prompt and speedy set of 
sanctions against Turkey followed up by even stronger ones from 
the U.S. Congress and pulled from the table various, if you 
will, incentives for Turkey to behave better and set into 
motion the diplomacy that led very quickly to a ceasefire.
    Senator Coons. Well, given what I think is the unreliable, 
undisciplined, and inappropriate actions by our President in 
abandoning our Kurdish allies, I am grateful that the 
majority--the chairman and the minority leader of this 
committee have joined in introducing legislation, which I hope 
to join. Whether it is that bill or other bills, I think we in 
Congress need to demonstrate our ability to advance sanctions 
legislation that may endure beyond the next tweet or phone 
call.
    Thank you, Ambassador.
    Senator Rubio. Senator Portman?
    Senator Portman. Thank you, Chairman.
    First, thank you for your service. Jim Jeffrey, you have 
been a stalwart on foreign policy issues, including trying to 
figure out the most complex and muddled part of the world. It 
is not easy. It is a messy situation. No question about it.
    I see it pretty simply, which is that we had a small number 
of troops there, mostly special operators, who were keeping the 
peace. And it was not perfect. It never is in that part of the 
world. But we were avoiding some of the problems we have seen, 
and that includes not just the Iranian-backed forces and the 
Syrians coming in, but the Russians coming in. And that video 
of the Russian journalist the day after walking through our 
base haunts me.
    And then, of course, what we have done with regard to the 
Kurds. And I want to ask you a question about that in a moment. 
But to me this is about the Kurds, but it is also about our 
allies and our potential allies in the future and what impact 
that will have.
    And then, of course, finally the displacement of more 
refugees. I mean, that area has already seen its share of 
refugees. Has it not? And now there are many more.
    And then I guess finally, ISIS. And you said that you think 
only dozens of ISIS fighters have been released. I have heard 
larger numbers. But the point is we have unfortunately found 
ourselves in a situation where because of the unsettled nature 
now of that buffer region, much of what the Kurds were doing to 
restrain the ISIS fighters and family members and so on has now 
been disrupted.
    I guess I will not ask you to agree or disagree with me on 
that assessment because I do not want to put you on the spot. 
You have been an able reporter here on what you think is 
happening. You avoided expressing your own personal views. But 
those are mine.
    On the issue of what does this do to us going forward, I 
think about Iraq, and I think about the role that the KRG has 
played in supporting our efforts there. Ever since 1991, we 
have relied on the Kurds. Have we not? And what is this going 
to do with regard to our relationship to the Kurds more broadly 
particularly in Iraq and to those communities, those Arab and 
Kurd communities, in that part of Iraq and in the parts of 
Syria, northeastern Syria? What will our withdrawal and our 
actions here do to affect our relationship with those forces? 
And can we continue to work with them?
    Ambassador Jeffrey. That may be a good analogy, Senator. As 
you know, our partners for many years, the PUK and the KDP, 
Kurdish parties in northern Iraq, decided to have an 
independence referendum without properly consulting us or 
getting our views. Well, they got our views. We thought this 
was a big mistake in the fall of 2017.
    When this happened, the Iraqi army moved into an area, a 
mixed area, where the Kurdish regional government had extended 
its sway after Saddam had fallen in the Kirkuk area and, 
through some fairly significant fighting, took back the oil-
rich province of Kirkuk. That was a huge blow to the Kurds. 
They felt that we had abandoned them. Our argument was we never 
promised you a military guarantee for that area. Rather, we 
tried to work out--and I was involved in that, as well as 
people right here with me today--trying to do oil deals and 
other things between the Kurds in the north and the central 
government in Baghdad.
    Again, we did not succeed in stopping a conflict from 
occurring. We did succeed very quickly in bringing that 
conflict to a halt and then bringing the two sides together. So 
I would say that is an example of how not using military force 
but using diplomacy and economic and energy tools we can keep a 
relationship with the Kurds. I know Masoud Barzani very well. 
We have a good relationship with him today.
    Senator Portman. I hope you are right. I do not mean to cut 
you off, but I hope you are right. But I cannot imagine there 
is not an impact here on the Kurds more broadly and to other 
allies, as I have said, around the world and future allies who 
we would want to turn to.
    You have used the word ``incentives'' a lot today to talk 
about what was on the table previously. I do not know if you 
feel that you are able to talk about those discussions with 
Turkey, but I had always hoped that part of the way we could 
resolve the problems with regard to Turkey and the Kurds was 
through commercial activity, specifically trade and their 
interest in a trade agreement. And I had reason to believe, 
based on some reporting in fact from folks at the State 
Department, that that was a possibility.
    What happened? Why did the Turks not take us up on our 
offer to expand trade? We do quite a bit of trade with them in 
steel already. I know there are new sanctions now in place 
there and new tariffs. But why did those incentives not work, 
and how could they possibly work better going forward? Is that 
what you are referring to when you say ``incentives''?
    Ambassador Jeffrey. Absolutely. In a nutshell, this was a 
very attractive package. And the issue is not with the Kurds. 
Some 15 to 20-plus percent of the Turkish population is 
Kurdish, and in some elections, a high percentage of them 
actually vote for President, formerly Prime Minister, Erdogan's 
party. It is all about what the Turks see is a terrorist 
organization, the PKK, and the offshoot of that in Syria, the 
Syrian wing of that, if you will, the YPG, which became for 
very good reasons that I agreed with at the time and agree with 
today our ally against ISIS. They were the only people who 
could fight effectively against ISIS at the time. And as part 
of the deal with us, they agreed not to take any actions 
against Turkey, and they have lived up to that agreement.
    But they were still seen as a latent threat on Turkey's 
border just like Israel sees Hezbollah as a latent threat on 
its border, even though there has only been one incident--it 
was very recent--since 2006 with Hezbollah on Israel's border.
    So that is the point I made in my oral testimony that major 
states in a region neighboring an area where we have forces 
have their own vote in any conflict, and they will look to 
their existential concerns. We think they made the wrong 
assessment. We think that they could have eventually had a 
better relationship with this wing of the PKK. In fact, they 
had been in negotiations or discussions with them up until 2015 
in Ankara. We wanted to see if they could get back to that 
level. Thus, we did this joint patrolling with the Turks inside 
Syria in these YPG areas with the YPG pulling back. They were 
basically the silent third partner. We had a deal going.
    In October, President Erdogan or the Turkish Government in 
a sense decided we are not going to go with this anymore. We do 
not care about the incentives. We want to go in and deal with 
this problem.
    We are looking into, of course, why they decided to do 
that. We think it was a big mistake. And as I said earlier, 
they are not more secure today. We are not more secure today. 
Nobody is more secure today because of that action.
    Senator Portman. And none of the incentives were 
implemented.
    Ambassador Jeffrey. The incentives now--they are in play. 
We will have to see how our relations with Turkey continue on. 
I think we have the fellow who has the enviable job--I have the 
enviable of Syria. He has the enviable job of Turkey.
    Mr. Palmer. Thank you for that, Ambassador.
    To add to that, Senator, the Turkish Government, President 
Erdogan is certainly interested in expanding the trade 
relationship with the United States. They have made that very 
clear. We have had talks with the Turks about enhancing, 
building on the trade relationship targeting $100 billion a 
year in annual trade. That is a very ambitious target. But 
there were conversations in play about how it is that we might 
approach that target. At the end of the day, as we would look 
at it, Turkey, although it was very interested in this package, 
also felt that what was going on in northeast Syria represented 
a significant security threat and made a decision that was a 
security decision rather than an economic, commercial decision.
    But we do look forward to the opportunity to restore a 
sufficient measure of balance to the U.S.-Turkey relationship 
that we can go back to discussions about the mechanisms through 
which we could expand and strengthen the trade and commercial 
relationship.
    Senator Portman. I would like to think that is on the table 
to try to resolve this issue.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you, Senator.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank you both for working hard to get us this hearing. 
I appreciate your service, both of you.
    I want to be up front. I had major concerns with our Syrian 
deployment when it began under the prior administration, and I 
opposed the decision to arm the Kurds and other groups in 
Syria.
    For one, this deployment and action was not authorized by 
Congress. I voted for the 2001 authorization and never dreamed 
it would be used to justify U.S. forces deployed in the middle 
of a Syrian civil war 18 years later.
    In addition, this deployment carried obvious risks of 
entangling us in a situation where there would never be a good 
way to get out. It was never in U.S. interests to invade en 
masse and resolve the Syrian civil war.
    The Turkish concerns with Kurdish militants using Syria to 
launch terrorist attacks against them was not going to go away. 
So the problem we face today was foreseeable.
    What was not foreseeable was the strange and sudden way 
this withdrawal was carried out. Our troops had to withdraw 
very quickly, placing them at increased risks to enemy or 
inadvertent friendly fire as they departed. Now the Russians 
are broadcasting propaganda from our former bases.
    The President had a year to work out the details of this 
withdrawal but instead, his hasty order put our troops at risk 
and strained both the relationship with our partners in the 
region and our ally, Turkey. Instead of a well-executed end of 
operations in Syria, we are now guessing what the President 
will decide on any given day and what his actual motivations 
are while crossing our fingers that he has been adequately 
briefed by policy experts like yourself.
    In this context, it is appropriate to remember that 
President Erdogan attended the ribbon cutting for a Trump 
Towers project in Istanbul in 2015. The Trump family reportedly 
receives several million dollars per year in licensing fees for 
these two buildings. But we do not know for sure because the 
President refuses to reveal his financial information.
    President Erdogan has threatened the President's financial 
interest in Istanbul before. In 2016, when then candidate Trump 
was calling for a ban on Muslim integration to America, the 
``Wall Street Journal'' quoted President Erdogan as saying 
``they put that brand on this building and it must be swiftly 
taken down.''
    Does it concern you that the President of the United States 
has an active business interest in Turkey at the same time that 
our Nation, including you, are engaged in very high stake, 
tense diplomatic engagement and the President of Turkey has 
already threatened that business interest at least once that we 
know of?
    Ambassador Jeffrey. I am comfortable with my role working 
on Syria, Senator. I will just leave it at that.
    Senator Udall. You do not want to answer the question.
    Ambassador Jeffrey. No, but I note that we do have the 
officer responsible for Turkish affairs here.
    [Laughter.]
    Senator Udall. Mr. Palmer, please.
    Mr. Palmer. The issues that you raise, Senator, have never 
been part of any conversation with Turkish officials of which I 
have been a part.
    Senator Udall. And has anyone ever discussed the Trump 
organization's business interests in Turkey with either one of 
you?
    Mr. Palmer. Not with me, Senator, no.
    Ambassador Jeffrey. Never.
    Senator Udall. Ambassador Jeffrey, you have written in the 
past that the United States and Turkey need each other, and I 
believe we need to return to a dialog that addresses the rift 
that occurred as both countries got pulled into conflict in 
Syria. How do we repair that rift, and will sanctions against 
Turkey in your opinion lead to a solution or continue to 
increase that rift? And will sanctions on Turkey help or hurt 
the U.S. effort to counter Russian and Chinese interests in the 
Middle East and Europe as well as Iranian ones?
    Ambassador Jeffrey. Having just spent--let me see--the 
weekend before last night and day, again with the people here 
with me, imposing a set of sanctions on Turkey, I am not 
against sanctioning Turkey. We sanctioned Turkey because of its 
actions against our better judgment in going into Syria 2 weeks 
ago.
    But we do believe that sanctions are a blunt instrument, 
and the best way to use them is to effect changes in behavior. 
It is my belief--and I was there in the negotiations with Vice 
President Pence--that the potential additional sanctions to be 
levied almost immediately and in particular the sanctions that 
were being prepared in Congress were a major factor on the 
achievement of a ceasefire by another name the day after the 
entire Turkish leadership in press comments had said there 
would be no ceasefire. Well, then there was a ceasefire. That 
is a good example of what you can do with sanctions. But 
sanctions, as they are being levied, also if behavior changes, 
as we think we see today, have to be lifted. That is how I see 
sanctions being used, Senator.
    Senator Udall. Mr. Palmer, do you have anything to add?
    Mr. Palmer. No, Senator. I agree absolutely with what 
Ambassador Jeffrey said. Sanctions are an important tool in the 
arsenal. The more flexible that they can be and the easier it 
is to put them in place and then remove them, the better it is 
as a tool for us to use in influencing behavior. The goal of 
sanctions should be to affect the behavior of the target state.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Rubio [presiding]. Senator Paul?
    Senator Paul. Thank you for your testimony.
    Ambassador Jeffrey, do you believe or do you agree with the 
statement that the Syrian civil war has largely stalemated and 
that in all likelihood Assad will continue to be in charge of 
the Syrian Government?
    Ambassador Jeffrey. It is stalemated, but because it is 
stalemated at extraordinary human cost--and we heard the 
statistics which were right. Half the population has fled him. 
They are getting no money. It is basically a pile of rubble. I 
think that it is open to question whether Assad personally is 
going to lead that country indefinitely.
    Senator Paul. You know, I would disagree. I think Assad is 
there to stay barring something extraordinary happening. I 
think Assad is there to stay. And I think that one of the 
things that is going to happen from this that I do not know if 
anybody could have necessarily predicted, but one of the 
reasons why we have not been able to have a peace agreement is 
sort of our position through the U.N. agreement is fair 
elections which probably does not mean Assad wins a fair 
election. So in a way, one of our goals has been regime change. 
If you take the U.N. resolution to be fair in elections, which 
are not going to happen, the thing is that now we have 
disrupted things. As we have disrupted things, the Kurds now 
are talking and actually fighting alongside of Assad.
    I actually think that the Kurds have a much better chance--
we were never staying forever. It never really was our goal to 
have a Kurdish area. I think there are parallels to the Kurdish 
area within Iraq that could happen within Syria. But I do not 
think we are going to be of any use to it if we still maintain 
that regime change has to come before we get any talks.
    That is why I think we are going to be largely bypassed, 
and in some ways it might be a good thing actually that we are 
largely bypassed and we have less of a role in Syria because 
the Russians do have the ability to talk to Erdogan, and they 
also have the ability to talk to Assad.
    If Erdogan can be convinced that his border can be 
controlled by a real government--that is the problem. There has 
not been a real government and there has not been anybody able 
to control the territory. As Assad, the Russians, and perhaps 
the Kurds ally to control that territory, then it is really a 
matter of now two people talking: Assad and Erdogan.
    And so I actually think that the chance for peace actually 
occurs and has a better chance now than it has ever had, but I 
do not think we will be a part of it as long as we will not 
have a discussion with Assad because I think Assad is going to 
remain barring an assassination or some internal upheaval 
within his government. I think he does remain.
    And it is not because I want him to. I have about as much 
use for Assad as I have got for Erdogan. To me they are both 
authoritarians. But I do not see our role forward if we are 
adamant that this U.N. resolution 2254 basically to Assad and 
others means Assad has got to go before we can even engage 
Assad.
    Is it still our government's position and you as part of 
our government that we do not talk to Assad and that Assad can 
be part of no negotiations?
    Ambassador Jeffrey. It is our position that we do not talk 
to Assad. But Assad is part of the U.N. negotiations that we 
support under 2254. And having been involved in one or two 
regime change adventures in my career, this is very different. 
This is not our idea to overthrow Assad. In fact, President 
Trump has sent on to the NDAA a classified position to Congress 
on 1 March of this year laying out our policies and it is 
explicit that it is not to overthrow Assad.
    The idea of free elections is a decision taken by the 
entire international community because of the unique threat 
this guy poses. Erdogan does not believe if Assad got on the 
border he would protect the border. Erdogan thinks that he 
would use the Kurds against him or at least the PKK Kurds.
    Senator Paul. I am not saying it is easy. I am saying it is 
an impossible opening. And I think until someone talks to 
Assad, there is no opening. So the war goes on forever until 
someone begins to talk to Assad or Assad is gone.
    And I think that that is the realism of this. The realism 
of this is we have to see the world as it is, not as we naively 
paint in black and white and Jefferson is going to come riding 
in on a horse. And I know you see the world that way. But I 
think we have not yet gotten there in Syria to see the world in 
a realistic way knowing full well that there are things we do 
not like about the authoritarianism of most of the people over 
there. And yet we deal with them on a daily basis. But really, 
I think peace is prevented. I think Assad is staying and peace 
is prevented until someone talks to him.
    I think it is now going to happen without us. I agree that 
there are disagreements between Assad and Erdogan, and they do 
not right now trust him. But I think there is the possibility 
because, see, the Russians are also going to be an influence in 
this. And the Russians are actually becoming players. And we 
have this hysteria, this political hysteria, that if anyone 
talks to Putin, that somehow you are a supporter of his or 
somehow you do not love your country. But yet, the Israelis 
talk to the Russians. I mean, everybody else over there seems 
to have a more realistic understanding of the world than we do 
and particularly in our politically motivated world.
    But my only advice is to keep an open mind with regard to 
Assad and with regard to negotiation, and perhaps it is 
something that happens without us getting in the way.
    Thank you.
    Senator Rubio. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    We have such amazing respect for the work that you have 
done throughout your career and particularly the job that you 
have taken on most recently.
    That is why I think some of the most stunning testimony 
that we have heard here today came in answer to Senator 
Menendez's early questioning when he asked whether you had been 
consulted prior to this momentous decision being made. I do not 
really know why we have someone with the title ``Special 
Representative for Syrian Engagement and Special Envoy to the 
Global Coalition to Defeat ISIS'' if they are not consulted 
before the President takes the most significant single action 
affecting U.S. interests in Syria and the future of ISIS during 
his presidency. And I think it speaks to the utter chaos of 
American foreign policy today that you were not consulted or 
talked to about this decision prior to it being made.
    I had a recently retired general who commanded or oversaw 
American troops in Syria in my office last night. He was 
distraught in part because he tells me that the word that our 
soldiers are using as they are moving out of their positioning 
is ``betrayal.'' They have been embedded with the Kurds, with 
the STP, and they feel that they have been part of a betrayal 
of the forces that they have been supporting and fighting 
alongside.
    One of their specific grievances is that we convinced the 
Kurds to dismantle some of their defenses along the border with 
Turkey in anticipation of the United States and Turkey being 
able to work out some joint patrols. But in tearing down those 
defenses, it left the Kurds much more susceptible to the 
inevitable attack that came.
    In retrospect, do you think that it was a good idea for the 
United States to press the Kurds into dismantling these 
defenses?
    Ambassador Jeffrey. Of all the things that I have 
experienced in this particular portfolio and particularly this 
subsector of it with the Turks and the Kurds, the thing that I 
am most disturbed about is the fact that after having agreed to 
a way forward with us in August--Turkey--to do these joint 
patrols and the dismantling of fortifications, then suddenly 
inexplicably from my standpoint and many others', the Turkish 
leadership decided that they would just march in and do it all 
themselves.
    The requirements of the August agreement were for the YPG 
to dismantle fortifications in what we call the safe zone but 
essentially the zone we are talking about. The truth is that 
was the one thing they do not do a very good job of. Perhaps 
they felt they could see what was coming. And this was a major 
bone of contention between us, the Turks, and the SDF.
    Senator Murphy. Listen, I certainly think that we can draw 
issue with the Turks' decision to abrogate the agreement we 
made with them, but it would have been an additional reason for 
us not to sell them out by removing our forces given that we 
had asked them to take this extraordinary measure, which they 
took in anticipation of us remaining the bulwark between them 
and the Turks.
    A part of your testimony that I am having a little trouble 
understanding is your belief that the President has not green-
lighted or did not green-light the actions by Turkey. On Sunday 
night, the President sent out a press release in which he said 
that he had just gotten off the phone with the President of 
Turkey and that they would now be moving forward with their 
long-planned operation into northern Syria. He took the one 
action that was a precondition to the Turks mounting an 
offensive, which was the removal of our forces.
    And since then, he has defended Turkey's actions. He said, 
quote, they have got to keep going at each other. It is 
artificial to have these soldiers walking up and down between 
the two countries. He said, like two kids in a lot, you have 
got to let them fight. I mean, the world read that statement on 
Sunday night. It has listened to the President defend the 
decision of Turkey to enter Syria, listened to the President 
talk as if it is a good thing that the two sides are now 
fighting each other without the United States in the middle of 
it.
    How is the world not to read all of those actions as a 
clear green light to Turkey to come in? The President is 
defending the decision that he made.
    Ambassador Jeffrey. A couple of points. First, the 
President did say those things. He also said many other things, 
including I will crush the economy because Erdogan has released 
or actually we released the letter to President Erdogan. You 
can see that the President took very tough language with 
President Erdogan on this issue, advocated some kind of an 
agreement or arrangement with the SDF leader, General Mazloum.
    But in addition--and I think it is a very important point 
here--this idea of betrayal and giving a green light--it is as 
if our troops in northeast Syria were like our troops along the 
Korean DMZ, to hold off a force from the north. They were not. 
That is not where they were. There were two outposts, each of 
12 people, along that whole area of 140 kilometers. And we had 
told the Turks--I was involved in telling them that--that is 
simply to observe whether the Kurds are shooting across the 
border at you or you are shooting across the border at them. 
That was not a security perimeter of any sort.
    The forces that we eventually did move were way west of any 
of this fighting, and they were moved--again, DOD can explain 
why, but looking at it on the map, it was clear that pretty 
soon they would have been cutoff as the Turks came down to the 
main east-west highway. And that is my understanding of why the 
decision was made.
    But I repeat from having followed obsessively Turkish, 
including the intelligence I cannot get into here, views on 
this. Of all of the things I saw--and they are all over the 
map, Senator--I never once saw any Turk in any way in a 
position of responsibility saying, gee, what are we going to do 
about those U.S. military forces. They knew that they did not 
have an order to defend the Kurds--well, the----
    Senator Murphy. You do not think that our forces were a 
deterrent?
    Ambassador Jeffrey. Absolutely not. And I will cite Ash 
Carter Sunday on--I think that was with Stephanopolous when he 
was asked that specifically, and he said we never--this was the 
last administration. We never told the Kurds that we would 
defend them militarily against Turkey, and that means we did 
not tell Turkey. This was followed up in Face the Nation by 
General Tony Thomas, who said essentially the same thing to 
Margaret Brennan.
    Senator Murphy. I think our soldiers on the ground were led 
to believe something fundamentally different. And so query as 
to how our soldiers who are carrying out the mission felt that 
they were betraying the Kurds if ultimately part of the reason 
for being there was not to protect them against the very nation 
on their border that was seeking to destroy them.
    The Chairman [presiding]. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thank you to the witnesses.
    The hasty Trump retreat produced vivid pictures of U.S. 
troops being pelted by stones and rotting vegetables as they 
walked away from their Kurdish battlefield allies. And the 
consequences of the Trump retreat are at least the following: 
one, empowering Turkey, Iran, Russia, and the regime of Bashar 
al-Assad. Turkey is a very complicated ally that is now sliding 
toward adversary. Iran is an adversary. Assad is a pariah, and 
Russia is an adversary.
    The second consequence is likely to leave, based on all of 
the military testimony that I am hearing on the Armed Services 
side, the other committee on which I sit, to a renewed threat 
of ISIS posing a threat to the United States and other nations. 
And we have already seen prisoners escape. The numbers are in 
some dispute, but in the chaos that is to follow, the worry is 
that it would be more.
    We have abandoned a United States ally who fought valiantly 
with us. And it is more than abandoning them. When the 
President goes out of his way to say the Kurds are no angels, 
why trash them on the way out the door? Why trash them? And if 
you have to do this because Turkey is coming across the border, 
then you could just say that. We do not want to face off 
against the Turks. But why trash the Kurds and sort of name-
call them and make them sound like they are not the partner 
that the United States has been the most successful working 
with in the battle against ISIS?
    It has paved the way for ethnic cleansing against the 
Kurds. Already the reports are that 176,000 Kurds--half of them 
are children, more than 80,000 of whom are children--have been 
displaced just in 2 weeks in the Turkish incursion across the 
border.
    And then finally, a consequence of sending a very bizarre 
message about what U.S. priorities are, we are pulling troops 
from the region. We are going to put troops around oilfields. 
We want to protect oilfields from ISIS, but we are not 
interested in protecting Kurds from Turkey. We are pulling out 
of the region, but we will put a couple thousand more troops in 
Saudi Arabia to protect their oil assets. Why? Well, the 
President says, well, because they will pay for us to do it. 
Okay. So are U.S. troops mercenaries now? Is that what kids 
like my son who are in the Marines are? They are just 
mercenaries and will just go to whoever pays for them to be 
there?
    The question that is raised by all of these consequences 
from the Trump retreat is what would anybody think about 
partnering with us if there is a tough battle ahead against a 
non-state terrorist force or someone else and we go and ask. If 
ISIS resurges and we go back and ask the Kurds to help us 
again, I think I know what the answer is going to be.
    Ambassador Jeffrey, you have been blunt and I appreciate 
it. I was astounded as well, but I appreciate your candor in 
your response to Senator Menendez's question about whether you, 
who have been specifically tasked by this administration with 
the responsibility of helping manage this admittedly very 
difficult situation and certainly manage the Global Coalition 
Against ISIS--if you were not consulted with--if you were not 
consulted with about this withdrawal, that just speaks volumes 
about its chaotic and ad hoc nature.
    One of the achievements that you, I think, get some credit 
for in the last few months is you convinced Britain and France 
in July to increase their presence in the region to try to help 
us deal with the ISIS threat. My understanding is it was not 
just you who were not consulted with by the administration 
before this, but Britain and France who just 3 months ago had 
agreed to some increase in their troop levels in the region and 
try to protect against ISIS and work hand in hand with the 
Kurds. My understanding is they were not consulted with either.
    Do you have any reason to doubt what I am saying to you?
    Ambassador Jeffrey. Thank you for giving me a chance to try 
again with Senator Menendez's question. I was telling the truth 
when I was not consulted. As charge in Iraq in 2005, then 
President Bush took decisions concerning Iraq where I was not 
consulted. Then again in the same city, Baghdad, when I was 
Ambassador under President Obama, including the withdrawal of 
U.S. forces, he took decisions without consulting me.
    I will say that in my current job, I feel that my views 
through Secretary Pompeo have been brought repeatedly and 
frequently and I think in many cases effectively to----
    Senator Kaine. I mean, just kind of professionally are you 
indifferent to not being consulted about the matter that is in 
your lifelong expertise, to which you have devoted your entire 
public service career? You have come out of retirement to do a 
very difficult job, and a decision is made and you have 
sacrificed to come out of retirement. And you are not even 
asked what you think, and that does not cause you any concern 
whatsoever?
    Ambassador Jeffrey. A, had it been the first time, it might 
have, but as I said, it has happened repeatedly in senior 
positions. But again, you have to----
    Senator Kaine. Well, I would hope that no matter how long 
you serve that you would retain enough of a moral compass to 
have a sense of outrage about things that are outrageous.
    Look, I will just conclude and say this. If the 
administration had come to us with this as the plan 4 months 
ago, here is what we think the solution is, we want to empower 
Russia, Turkey, Assad, Iran, we want to run the risk of ISIS 
reconstituting, we want to walk away from the Kurds, we want to 
make other allies wonder about whether we will be loyal to 
them, we want to send a mixed message about whether oil is more 
important than people, if they had come to this committee and 
said this is what we want to do, what do you think, the entire 
committee would have laughed them out of the room. That is 
where we have arrived at by an ad hoc decision without 
consulting with the committee.
    I mind not being consulted with. Whether you mind it or 
not, whether you are so used to it that it seems like it 
happens, I mind not being consulted with. I mind not having an 
administration come and propose some plan for Syria and let us 
ask questions and maybe make suggestions. But we are finding 
out by tweet as well, and that really, really bothers me.
    Mr. Chair, I return it to you.
    The Chairman. Thank you, Senator.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony.
    You know, this is a discussion and debate that I think 
sometimes gives way to caricature, gives way to two different 
extremes in polls, that there are some in the political world 
who seem to advocate that we should stay in Syria forever and 
attempt to remake that country as a democratic utopia in our 
image. There are others who seem to advocate that we should 
immediately and precipitously withdraw.
    I tend to think the American people agree with neither of 
those polls, that neither of them are right or accurate and 
make sense, and that the touchstone of our foreign policy 
should be the vital national security interests of the United 
States.
    I think it is worth pausing to recognize that the defeat of 
ISIS, taking away their so-called caliphate, is an 
extraordinary national security victory for the United States 
and something for which the Trump administration and the brave 
men and women in our armed services deserve enormous credit for 
winning that victory.
    I also agree with the President's ultimate objective of 
bringing our soldiers home. I think the American people have a 
limited time and patience for our sons and daughters being in 
harm's way.
    That being said, I think the way this decision was executed 
was precipitous and risked very serious negative consequences. 
The two that are most problematic in terms of how this decision 
was executed is, number one, I am concerned there is a 
substantial possibility of ISIS returning. There are right now 
some 15,000 ISIS fighters who remain in Iraq and Syria, and 
pulling out without an effective counterterrorism strategy, 
presence, and platform to combat those fighters risks those 
fighters ultimately attacking United States citizens and 
endangering our national security.
    Secondly, I think the way we announced the withdrawal 
risked abandoning the Kurds to military onslaught and 
potentially even the threat of a genocide. I think the Kurds 
have a long history of standing with America against our 
enemies, of risking their lives to stand with America against 
our enemies, and were the United States to sit back while 
Turkey attempted to slaughter the Kurds, I think that would be 
nothing short of disgraceful.
    So given that, Ambassador Jeffrey, I want to ask initially 
do we know right now, since this announcement was made, how 
many ISIS fighters have been released or are at jeopardy of 
being released.
    Ambassador Jeffrey. Again, a relatively small number 
appeared to have escaped of actual detainees as opposed to 
people that we worry about who are internally displaced 
persons, mainly adult females that were married to ISIS 
fighters. So the number is relatively small. We are always 
worried----
    Senator Cruz. Can you quantify relatively small?
    Ambassador Jeffrey. I would say in the dozens at this 
point. I mean, there are various accounts out there, but there 
is a lot of propaganda both from the Turkish side and from the 
other side.
    Senator Cruz. Dozens of ISIS fighters?
    Ambassador Jeffrey. Dozens of ISIS fighters. I can think of 
one incident where five supposedly fled, and there have been a 
couple of other rumors that we are looking into. The problem is 
that under these circumstances, we do not have the same eyes on 
that we normally did.
    But I want to be clear. All ISIS detainees are in jeopardy 
if things go south in northeast Syria of somehow escaping or 
overwhelming their guards. That is one of the key priorities--
--
    Senator Cruz. How many ISIS are we talking about?
    Ambassador Jeffrey. About 10,000.
    Senator Cruz. About 10,000.
    Let me ask you about the Kurds. Do we know how many Kurds 
have been killed since Turkey began the onslaught?
    Ambassador Jeffrey. I think there have been hundreds of 
casualties, but we do not have direct numbers because 
communications are not all that great between the people in the 
field and----
    Senator Cruz. By casualties, do you mean injuries or deaths 
or----
    Ambassador Jeffrey. I would put it as killed and wounded.
    Senator Cruz. Killed and wounded.
    Let me ask what happens--as I understand it, the ceasefire 
expires in 9 minutes under the terms of it. What happens in 9 
minutes?
    Ambassador Jeffrey. It expired 2 hours ago. What happens 
under the agreement is, first of all, we cannot call it a 
ceasefire for Turkish sensitivities vis-a-vis the other 
partner, which is not a state but a sub-state organization and 
in their eyes a terrorist one. So we call it a pause. And at 
the end of that pause, if both sides, the Turks and the YPG 
agree that everything that was agreed has been accomplished, 
then the pause goes into a halt of Turkish forces. And then we 
then lift our sanctions that we levied when the Turks went in 2 
weeks ago. So that is our plan.
    Senator Cruz. So, Ambassador, when this decision was 
announced, I was traveling in Asia and was in Japan and Taiwan 
and India and Hong Kong. And repeatedly, traveling amongst our 
allies, I faced the question. I faced the question in Taiwan. I 
faced the question in India that if America will not stand with 
the Kurds, that if we will not keep our word to the Kurds, why 
should we, other friends and allies, trust that America will 
stand with us. How should we answer those friends and allies?
    Ambassador Jeffrey. I have heard that too, Senator, and 
everybody around me has.
    I would put it this way, and it gets back to the 
consultations. I was consulted by President Trump on what to do 
after this happened, and I was one of the people who put 
together the plan, supported fully by President Trump, to 
impose these very harsh sanctions on Turkey immediately; 
secondly, when you talk about a green light, to green-light the 
action by the U.S. Senate and House of Representatives to 
impose even stronger sanctions.
    Senator Cruz. Let me ask a final question just because my 
time has expired. What confidence can we have that America will 
not abandon the Kurds who have stood with us repeatedly at 
great peril to themselves?
    Ambassador Jeffrey. We have used dramatic diplomatic, 
political, and economic tools, which are normally the right 
tools short of war, to reverse this decision, and at this 
point, as we look at the ceasefire, I think we have done a 
pretty good job in bringing this attack to a halt.
    Senator Cruz. Thank you.
    Senator Rubio [presiding]. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Secretary Palmer, I want to raise the question of nuclear 
weapons with you in the context of Turkey. We now know from 
public statements according to the President that there are 50 
nuclear weapons in Turkey at the Incirlik Air Base that are 
American. They are part of the NATO defense.
    On September 4th, President Erdogan said that he cannot 
accept Turkey's lack of nuclear weapons. So my question to you, 
given this profound ambition which he stated, did Vice 
President Pence raise that issue with Erdogan in his 
conversations with him just last Thursday?
    Mr. Palmer. I have no information to that effect, Senator, 
in terms of the specifics of the Vice President's conversations 
with President Erdogan. We have, of course, seen President 
Erdogan's statements with respect to nuclear weapons.
    I would underscore that Turkey is a party to the Nuclear 
Non-Proliferation Treaty. It has a comprehensive safeguards 
agreement in force with the IAEA. It has accepted an obligation 
never to acquire nuclear weapons and to apply the IAEA 
safeguards to all peaceful nuclear activities.
    Senator Markey. Given his conduct over the last 2 weeks, I 
think that we should consider that all of those documents are 
no longer relevant in terms of how he will be operating.
    Have any top level U.S. officials had conversations with 
Turkish Government officials since he made that statement about 
his ambition now to procure nuclear weapons?
    Mr. Palmer. I know of no such conversations at the highest 
levels, Senator, but I would underscore that neither have we 
seen activity that would be consistent with those aspirations. 
This is a political position.
    Senator Markey. So you are an expert in this region. Do you 
think that the United States negotiating with Saudi Arabia on a 
nuclear program for Saudi Arabia could have any impact upon 
Turkish ambitions to also be able to obtain the nuclear 
materials which are needed for a nuclear weapon, given the fact 
that the Saudi prince said that they may develop nuclear 
weapons? Do you think that that is a factor in what is going on 
at this particular time in Turkey?
    Mr. Palmer. I do not want to try and read into the 
motivation of the President of Turkey, but certainly Turkish 
authorities pay considerable and very close attention to 
developments in their region, yes.
    Senator Markey. I would think so, and I think that would 
give us an additional reason why we have to be very careful 
about any enrichment capacity which we would allow the Saudis 
to be able to possess on their own territory because that 
would, without question, trigger in Erdogan a demand that he be 
given equal privilege to do so.
    And from my perspective, I think that he is already 
emboldened dramatically--Erdogan--in this direction. He 
capitulated to Turkey only weeks after Erdogan had made his 
nuclear goal public. And we just walked away from the defense 
of the border in Syria. He failed to apply mandatory sanctions 
for Turkey's purchase of a Russian air defense system. He 
openly undercut our other nonproliferation sanctions stating 
publicly that as President he wants his own Treasury Secretary 
to let North Korea sanction evaders off the hook.
    So all of this is pointing in a very bad and dangerous 
direction. Turkey and Saudi Arabia are in a deadly escalation 
from my perspective, and I think the President is setting the 
stage for a very bad, even bigger problem coming down the line 
in a very short period of time.
    And if I may just turn to the 50 nuclear weapons that we 
now have stored inside of Turkey, I think it is pretty clear 
that if we were making a NATO deployment decision today, that 
we probably would not be putting 50 of our weapons in Turkey. 
Have there been conversations with the State Department, 
Department of Energy about a removal of those weapons from 
Turkey?
    Mr. Palmer. Respectfully, Senator, I am not in a position 
to talk about nuclear force posture at this time.
    Senator Markey. You are not able to do so.
    Mr. Palmer. I am not able to do so. That is probably a 
question that would be most appropriately directed to the 
Department of Defense.
    Senator Markey. Okay. I appreciate that.
    Ambassador Jeffrey, I thank you for your service. And I 
think in each instance where you are not consulted but asked 
after the fact how do you handle the situation that has been 
created throughout your career without having consulted you, 
that you come in and do a very good job after the fact. I just 
wish that with each administration that they had listened to 
your advice at the beginning because you should always try to 
start out where you are going to be forced to wind up anyway. 
And that is why we have career diplomats, just to explain to 
administrations the messes that they are creating. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Graham?
    Senator Graham. I would like to echo what Senator Markey 
said about my admiration for you. We have to play the ball as 
it lies in golf and foreign policy.
    So, Ambassador Jeffrey, do you believe that the threat of 
congressional sanctions have helped the negotiations with 
Turkey?
    Ambassador Jeffrey. I saw the effect on the Turkish 
negotiating team. The sanctions legislation that you had co-
authored landed on the table.
    Senator Graham. Well, I just want to echo to Turkey, in 
case you are watching this, I would like a good relationship 
with your country, but we cannot have it this way.
    So can we turn this around, Ambassador Jeffrey?
    Ambassador Jeffrey. We believe we are on a path to turning 
it around.
    Senator Graham. I hope so and I think so. Turning it around 
would include a resolution between Turkey and the Kurds that is 
sustainable. Do you agree with that?
    Ambassador Jeffrey. Over the longer term, that would be a 
necessary--and again, it is not with the Kurds. It is with this 
element of the Kurdish population.
    Senator Graham. The YPG.
    Ambassador Jeffrey. Right.
    Senator Graham. So the way I envisioned this is that 
Turkey's legitimate security concerns about YPG armed elements 
have to be addressed. We have to have a demilitarized zone. Do 
you agree with that?
    Ambassador Jeffrey. We think that the way we addressed it 
in August was actually a very good way----
    Senator Graham. What happened here in August, we had a 
plan. We get it. The YPG heavily armed forces along the Turkish 
border is a non-starter for Turkey. I get that. I have gotten 
that for years. But I also told our friends in Turkey that the 
YPG, along with others, were there to help us with ISIS. We 
cannot abandon these people, and we are not going to allow 
ethnic cleansing in the name of a buffer zone. Do you think 
agree with that?
    Ambassador Jeffrey. Absolutely.
    Senator Graham. So the goal is to have an international 
force that we all trust--does that make sense--to police this 
safe zone.
    Ambassador Jeffrey. In theory, yes. The problem is finding 
an international force that we can all trust.
    Senator Graham. Okay. Well, to the international community, 
get off your ass and help us. We have been doing a lot. You 
have been doing a lot with us, but help us. You know, I do not 
like what President Trump did, but it has been frustrating for 
months to try to get hundreds of troops, not thousands to take 
a little pressure off us and end this fight between Turkey and 
the YPG.
    So, number two, do you agree to put this back together we 
have to continue the operations against ISIS with the Kurds?
    Ambassador Jeffrey. With the SDF, absolutely.
    Senator Graham. If we do not continue to partner on the 
ground in Syria with the SDF forces, ISIS is for sure coming 
back.
    Ambassador Jeffrey. I would say it will be easier if we are 
on the ground. One way or the other, we have to partner with 
them.
    Senator Graham. Okay. Highly unlikely that without ground 
components--put it this way. Ground components working with SDF 
has worked in the past. Do you agree with that?
    Ambassador Jeffrey. Absolutely.
    Senator Graham. It would be a high risk to abandon that 
strategy?
    Ambassador Jeffrey. If that is your only goal, it is better 
to have some American or other----
    Senator Graham. We need to control the area. Do you agree 
with that?
    Ambassador Jeffrey. I do.
    Senator Graham. Do you agree that we should not allow the 
southern oilfields in Syria to be taken over by the Iranians?
    Ambassador Jeffrey. I agree that it is very important to 
have a presence, be that American or allied in that area to 
ensure stability and security as a prerequisite for our other 
goals in Syria.
    Senator Graham. Do you agree it is important strategically 
for the United States to maintain the al-Tanf base so that Iran 
cannot flow weapons into Lebanon through Syria?
    Ambassador Jeffrey. For many reasons----
    Senator Graham. That is important for Israel. Right?
    Ambassador Jeffrey. It is important for all of our partners 
and allies, including Israel.
    Senator Graham. Let us go over it from the top. What we 
need to turn this around is to have a buffer zone between 
Turkey and the Kurds policed by people we all trust. Right?
    Ambassador Jeffrey. That would be one solution that I would 
support.
    Senator Graham. We want to continue a successful 
partnership to make sure that ISIS does not come back. We have 
had a successful partnership with the SDF regarding ISIS thus 
far. Do you agree with that?
    Ambassador Jeffrey. Absolutely.
    Senator Graham. So how do you turn this around? You make 
adjustments. So I am asking the administration to adjust. I 
understand what you are trying to accomplish to reduce our 
footprint, but I do believe you are on the right path. We are 
going to continue to support your efforts.
    What Senator Cruz said is important. If we leave the Kurds 
behind, in their mind and the eyes of the world, good luck 
having anybody help us in future to fight ISIS. This is the 
most important decision the President will make anytime soon. I 
stand ready to help him. I think we are on the right track, but 
I will not legitimize a solution that is not real. We are 
playing with people's lives. So we have to have a real 
solution.
    Thank you both for what you have done.
    The Chairman [presiding]. Senator Merkley?
    Senator Merkley. Mr. Ambassador, what forces did we rely 
for liberating Raqqa?
    Ambassador Jeffrey. That was SDF forces with, again, 
advice, assist, and accompany by U.S. special forces and some 
other----
    Senator Merkley. The Kurds did the heavy fighting there in 
a very difficult assault. They lost a lot of people. And their 
vision for why they were fighting--was it because they hoped to 
have an autonomous area in this northern Syrian triangle that 
might essentially give them some sense of ability to govern 
themselves?
    Ambassador Jeffrey. Their main motive I believe was to 
destroy ISIS because they had almost been destroyed by ISIS 
themselves back in 2014. I have talked to many of their 
political cadre who have ideas of an autonomous area in 
northeast Syria, but that is part of the political process that 
we are working on on another channel.
    Senator Merkley. There was, to be fair, a widely circulated 
vision of Rojava, or however it is pronounced--it is difficult 
I think for English speakers--which would be that self-governed 
autonomous area with a whole philosophy of democratic control. 
I mean, they were fighting for a vision of the future.
    I know you just had a discussion with Senator Graham about 
reversing this decision. Right now, that whole triangle that is 
northeast of the Euphrates River what would on a map very 
recently have been yellow for Kurdish control is now 
essentially occupied by Syrian governmental forces, Russians, 
and Turks. And Iraqis are fleeing into--not Iraqis--excuse me, 
but the Kurds who were in that triangle are fleeing to the 
east. The vision of Rojava of an autonomous zone of self-
government--it is crushed. Is that not a fair thing to say?
    Ambassador Jeffrey. I think it is too early to judge what 
the political outcome of what is happening in northeast or 
frankly anyplace else, what is happening in the northwest in 
Idlib----
    Senator Merkley. It is possible to observe many pictures 
that have been coming over of the advancing Russians, Syrian 
Government forces, and Turkish forces. So the facts on the 
ground have changed dramatically. I do not see how this 
decision gets reversed, how you restore, if you will, the 
Kurdish triangle northeast of the Euphrates River.
    Do you think that that is a real potential outcome or that 
is just a conversation to say maybe somehow everything is not 
lost in terms of what was?
    Ambassador Jeffrey. One, I think that the Kurdish 
population is an important population in Syria and that it does 
have a future. Two, you are right----
    Senator Merkley. As an autonomously self-governed area?
    Ambassador Jeffrey. That is one possibility. That is the 
possibility we see next door in Iraq.
    But, two, I want to emphasize that this vision, which is 
the vision of our partners, was never the American vision. 
Again, I cite General Tony Thomas who said that in his 
discussions with them in the last administration--and that has 
been consistent in both administrations by everybody--we did 
not get involved in what their political future would be other 
than we were trying to find through the U.N. resolution that 
was relevant here, 2254, a political solution where they would 
have a role like all other Syrian citizens. We did not have a 
special----
    Senator Merkley. Let us move on because I think there was a 
lot of implicit support for supporting the Kurds and the vision 
that were carrying. So I think you overstate your case on that.
    Now, you said that you were not consulted by the President 
in terms of the impacts of a precipitous withdrawal, not on 
ISIS prisoners, not on the impact on Kurdish civilians, not on 
the impact of Kurdish fighters, not on the impact of the Syrian 
Government coming into the space, not on the impact of Russian 
influence, not on the impact on other allies. You were not 
consulted, but you said you felt you were well represented 
through Pompeo. Are you saying in the 2 or 3 days before Trump 
made this decision or in the week before that, that you fully 
briefed Pompeo on all these implications of a precipitous 
withdrawal?
    Ambassador Jeffrey. Sir, we briefed the Secretary and 
through the Secretary on the implications of that after the 
December 2018 decision. In fact, that led to a partial reversal 
of that withdrawal decision with the President's commitment to 
a residual force in northeast Syria that he took in February. 
So, yes, there was an iteration----
    Senator Merkley. So that was December, but we are not in 
December. We are talking about that week before the President 
made this decision. Whether the President did not turn to you, 
did he turn to Pompeo and Pompeo turned to you and said you are 
the expert, how do things stand now? Were you indirectly 
briefing the President in that week preceding this decision on 
October 6th to green-light the Turkish invasion?
    Ambassador Jeffrey. Again, beginning when the President 
took his first decision in the spring of 2018 to order a 
withdrawal, which was reversed, one of the most active 
discussions inside this administration which I was involved 
in----
    Senator Merkley. I am going to be out of time. I am asking 
you about that week before, did the President turn to Pompeo, 
got fully briefed, you fully briefed Pompeo? You were 
indirectly represented at that time, not what you did months 
before. The President, we probably collectively understand, 
would have forgotten whatever he was told months before about 
this kind of situation. So was Pompeo as caught off guard as 
you were is may be another way to put it?
    Ambassador Jeffrey. You would have to ask him, Senator.
    Senator Merkley. But he did not call you up during that 
period and say the President is on the verge of making this 
decision. I would like to get an update and make sure I 
represent the impacts.
    Ambassador Jeffrey. No, but in innumerable discussions with 
the President, I know that Secretary Pompeo had deployed all of 
these concerns about the future of the de-ISIS campaign, 
detainees, and all of that. This was, again, something that was 
discussed all of the time within this administration at the 
highest levels.
    Senator Merkley. If we had more time--and I am out of 
time--the thing I would find interesting is if you had been 
called--so I will state the question, but I am afraid I will 
have to defer to the committee for their--if you had been 
called and said the President is considering this, he wants you 
to come brief him, he wants to get our troops out of Syria, do 
you feel you could have laid out a plan that did not result in 
this advancement of the interests of Iran and Syria and Russia 
and ISIS that would have gotten our troops out of Syria?
    Ambassador Jeffrey. I would have tried.
    Senator Merkley. Thank you.
    The Chairman. Senator Rubio?
    Senator Rubio. Thank you.
    Again, I want to thank you both for being here, the 
Ambassador in particular. You have gotten a lot of the 
questions. I think you have done an admirable job of outlining 
your thoughts on it and the way forward.
    I do want to say you have expressed a level of--I do not 
even want to call it optimism, but hope that some of this is 
still salvageable. And I am puzzled by that only because the--I 
mean, the situation to understand it at its best, the Turks are 
pushing down into Syria with the goal of driving the Kurds out. 
And whether they are going to wait 5 days or X number of days, 
they expect them out of there. They have now cut a deal with 
the Russians who have basically said we are going to help you 
move the Kurds out of this area, and then we are going to 
jointly patrol the area with you. So the Kurds have been pushed 
into areas that they have now had to invite the Assad regime to 
come up and they are aligned with them. So you basically have 
almost a Turkish with the Russians and now the Kurds with the 
Assad and the Russians obviously in between.
    And you say we are going to continue to cooperate with the 
SDF forces on these issues. How? Where are we plugging in on 
this? And with who? Our troops--we have moved a thousand across 
the border to Iraq. The Iraqis are saying you cannot really 
stay here. You are not allowed to stay here. I am trying to 
understand. You are saying we are going to plug in and work 
with them on the anti-ISIS campaign. I just do not know where 
we are going to plug in. Are we going to go join them down 
there deployed with the Assad elements?
    And the other question that I have is you answered Senator 
Graham by saying that the ideal outcome would be a buffer zone 
controlled by elements that we trust. Well, that buffer zone is 
now patrolled by the Russians, which I do not think we should 
trust, and by the Turks who we should not trust because they 
have already broken a deal to jointly patrol the buffer zone. 
They had a good deal that was in place. Everybody was 
complying, and they said it was not enough for them. So we do 
not have that. How do we reverse the buffer zone given the 
facts on the ground now? And more importantly, where do we plug 
in?
    Ambassador Jeffrey. This is why one has to be hopeful in 
this complex situation. But let me sketch out where we are 
tonight.
    One, we have American forces on the ground with the 
leadership of the SDF. We have American diplomats on the ground 
in the same room with these people continuing to do the job we 
have been doing since 2014. And over much of the northeast, the 
SDF, with our support, with our air cover, is still in 
operation.
    Two, the Turkish offensive has been halted since the 17th. 
It has taken a swath of territory that is fairly small. The YPG 
voluntarily withdrew from that area and is now out of that 
area, but by and large, most of its forces are still intact. I 
underline ``still intact.''
    There is an agreement that I have been reading all 
afternoon between the Turks and the Russians, and having done 
two agreements, one of which did not work with the Turks, in 
the last 2 months, I have a fairly good layman's acquaintance 
with these kind of things. And it is full of holes. All I know 
is it will stop the Turks from moving forward. Whether the 
Russians will ever live up to their commitment, which is very 
vague, to be feasible methods to get the YPG out of their 
areas, I do not know. We did get the YPG out. They volunteered 
to as a condition of stopping the offensive.
    So right now, the situation is frozen. The YPG as a 
military force down on the Euphrates against ISIS or even up in 
the north is still largely intact. We are there. We are 
reviewing our options on what we are going to do in terms of a 
withdrawal right now.
    Senator Rubio. I am confused by that answer. My 
understanding from what has been reported in the press is that 
we have withdrawn or are in the process of withdrawing all of 
our military presence in that part of Syria. So you are saying 
here today that as of this moment tonight, there are areas in 
Syria controlled by the YPG in which U.S. diplomats and 
military forces are embedded alongside them, and these are 
areas that the Turks do not consider part of their agreement, 
and that are not collocated with the Assad regime.
    Ambassador Jeffrey. You have described at least half of 
northeast Syria tonight, if not more.
    Senator Rubio. And that is a situation that is sustainable 
given the President's order that we remove the remaining 
military elements?
    Ambassador Jeffrey. Sustainable is something that I do not 
think I would commit to at this point. It is our job to figure 
out how to make it sustainable with military, economic, and 
diplomatic----
    Senator Rubio. The notion that there would be any elements 
left behind of any military force, in combination with a U.S. 
diplomatic presence, runs contrary to what we have been led to 
believe is what is ongoing here from the administration, that 
everybody is getting out. Right?
    Ambassador Jeffrey. The order to the U.S. military was to 
withdraw all ground forces from northeast Syria, not from al-
Tanf. And I am not sure what the decision is on air over that 
area. But again, we are reviewing how we are going to continue 
to maintain a relationship with the SDF, how we are going to 
continue to maintain the fight against ISIS along the 
Euphrates, and how we are going to contribute in some way to 
the stability of that region that has just been torn asunder by 
the Turks going in with the tools available to us. And we have 
not completed that review yet, but it is ongoing.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Thank you very much for being here. I had a lot of 
questions and you have answered many. I have a couple things. I 
want to dive a little bit deeper.
    A question to both of you. The future of our relationship 
with Turkey, a longtime NATO ally, I believe is a serious 
national security challenge right now. You read lots about it. 
It has been called a troubled marriage. There are lots of 
different problems with Turkey's relationship with not just the 
U.S. but all of NATO. Bilateral relations between the U.S. and 
Turkey have reached a low point in my opinion. Turkey's 
purchase of the Russian S-400 surface-to-air missile system 
really I think puts the advanced capabilities of the NATO 
alliance at risk. Turkey's invasion in Syria and assault on our 
partners in the region have greatly impacted our national 
security interests.
    What are the best tools or the best leverage for us, the 
United States, to use to demonstrate our concern over Turkey's 
actions and ensure that there is a change in their behavior?
    Mr. Palmer. Thank you for that question, Senator.
    And I agree with just about everything that you have said, 
about how difficult and complex and challenged the U.S.-Turkey 
relationship is. This is an important relationship for the 
United States, but it is far from an easy relationship.
    Just to zero in on one of the particular issues that you 
highlighted, Turkey's decision to proceed with acquiring the S-
400 missile system from Russia. This is something that we 
opposed consistently, firmly at the highest levels. Turkey 
proceeded with that acquisition over our objections and paid a 
price for that. In particular, they paid a price by being 
removed from the F-35 program. That includes both the delivery 
of the physical aircraft and participation in the industrial 
program, which is being unwound. So there are immediate costs 
and consequences for Turkey of that decision.
    The additional issue of possible cuts of sanctions is under 
review even as we speak. That is an ongoing deliberative 
process.
    There is a high level dialog that we have with Turkey about 
the relationship that covers a waterfront of issues, and that 
includes the relationship with Russia and Turkey's decision to 
move ahead with the S-400. It includes Turkey's neighborhood, 
Iran. It includes drilling off the coast of Cyprus, which is 
something that Turkey has engaged in against the advice of the 
United States, something that we feel contributes to further 
instability in the region. It includes a range of issues where 
the United States and Turkey do not see eye to eye. It also 
includes the trajectory of Turkish democracy, which is of 
concern to the United States, the media environment, rule of 
law. We remind the Turks on a regular basis that NATO is an 
alliance not just of interests but of values, and that in 
particular includes democratic values.
    So this is a difficult relationship but it is an important 
one, and we are going to have to work through this problem set 
and hopefully come out in a better place.
    Ambassador Jeffrey. I have lived in Turkey for 9 years and 
have worked with it for 40 years. I am personally furious at 
this military move particularly after we had done an agreement 
with them that was a good agreement that we were living up to 
by and large in August.
    But I will say this. Turkey is not Iran. It is not by its 
nature, in the terms of its population and its public 
philosophy, an expansionist country. It is also in many 
respects a country with shared values. It currently has a 
government that--Mr. Palmer can go into in far more detail than 
I because I do not follow it that closely--is violating many of 
those values. But it is still a democratic system in a way 
that, for example, Iran is not, as we saw in the Istanbul 
reelection recently. And it is a country that has done a great 
deal in support of our objectives in NATO, including under 
President and previously Prime Minister Erdogan, including 
helping us react to the Georgia invasion in 2008. NATO radar 
that protects all of NATO against Iranian missiles, very 
critical. Actions in Afghanistan, and I could go on and on. So 
it is a mixed bag. And a lot of it is right now with this 
government we have some very serious problems but not as many 
with the state as a whole.
    Senator Barrasso. Let me ask you one other question. The 
Syrian Democratic Forces have been securing about 10,000 ISIS 
detainees across about 30 different detention facilities in 
Syria with Turkey's invasion of northern Syria greatly 
destabilizing the area where these facilities are located. 
There have been press reports that the Turkey-backed forces, 
the proxy forces are deliberately releasing ISIS detainees from 
prisons in northeastern Syria. Can you talk a little bit about 
it, the accuracy of what some of the press is reporting?
    Ambassador Jeffrey. I have seen nothing to confirm that. It 
would be highly unlikely. Why would Turkey do that? It has had 
more ISIS attacks on its soil than any other country other than 
obviously Iraq and Syria.
    Senator Barrasso. Thank you, Mr. Chairman. My time has 
expired.
    The Chairman. Thank you, Senator Barrasso.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    You know, I am the longest serving member of the committee 
on either side of the aisle at this point in time, and that has 
given me the benefit of listening to my colleagues on many 
issues over a period of time. And I must say that if what this 
administration decided was decided by the Obama Administration, 
the outrage would be deafening.
    And you know, Ambassador Jeffrey, I have the greatest 
respect for you. But one can try to put lipstick on a pig, but 
it is still a pig. One can ultimately call capitulation a 
victory, but it is still capitulation. And one can ultimately 
have a retreat and say it is strategic, but it is still a 
retreat. And that is I feel is exactly what has happened here.
    You made a statement earlier about being a diplomat not a 
military person, and I respect that. But in fact, it is 
military force that has gotten both Russia and Turkey exactly 
what they want. Turkey went ahead and through its actions and 
by the agreement that I have been given, the Sochi agreement, 
and the communique that was issued basically got everything 
they want. They do not have to fire a single shot.
    So here we are in August, as you have aptly said. We made 
an agreement. We were living up to it. That agreement, as I 
understand, for security purposes was working well. They 
violated it after we told the Syrian Democratic Forces to stand 
down from their defenses. So they got them to stand down on 
their defenses.
    Then we had an agreement, which was working perfectly well. 
They violated that agreement by now coming in and going ahead 
and using military force, military force that at the end of the 
day--you know, I am concerned about the press reports that has 
bombs landing near our troops even though they knew their 
location, that has troop advancement against elements of where 
our troops were.
    So at the end of the day, Turkey gets a 20-mile wide swath 
through a good part of what was ancestral homes of Kurds in 
Syria, and they get the sanctions lifted from them, not that I 
think the sanctions that were placed were the greatest ones 
because at the end of the day, the stock market went up after 
the sanctions were announced. So they got everything.
    So I do not understand how, at the end of the day, this is 
in any interests of the United States. I have never said that 
we were there to defend the Kurds, but we were there to defeat 
ISIS. And we are by far in a worse position.
    Would it not be fair to say--in your testimony, which I 
actually think your written testimony is more revealing than 
even the questions we have had back and forth, you talk about 
the U.S. strategic objective and national security interests in 
Syria remain being the enduring defeat of ISIS, al Qaeda, and 
their affiliates, the reduction and expulsion of Iranian malign 
influence, and the resolution of the Syrian civil war on terms 
favorable to the United States and our allies and in line with 
U.N. Security Council resolution 2254.
    Is it not fair to say that those strategic objectives and 
national security interests have been made far more difficult 
as a result of the decisions and where we are at today?
    Ambassador Jeffrey. Once again, that is the reason why we 
opposed Turkey coming in. We said if you come in, you are going 
to, as I said, scramble the entire security system in the 
northeast. That is going to have a big impact on----
    Senator Menendez. But they did what they wanted. We 
retreated. We retreated. We did. They did what they wanted, and 
we retreated.
    I think your statement tells it all on--I guess it is about 
page 4 or 5 of your statement. You say Turkey launched this 
operation despite our objections, undermining the de-ISIS 
campaign, risking, endangering, and displacing civilians, 
destroying critical civilian infrastructure and threatening the 
security of the area. Turkey's military actions have 
precipitated a humanitarian crisis and set conditions for 
possible war crimes.
    Well, all of that does not inure to helping our strategic 
objectives as outlined in your testimony. I think that is a 
fair statement.
    Ambassador Jeffrey. Absolutely. There is no doubt that 
Turkey's coming in has threatened all three of our objectives 
in Syria.
    Senator Menendez. So at the end of the day, I question 
whether or not--we have been talking about Turkey--and you 
know, Mr. Assistant Secretary, you said in response to 
questions by Senator Markey that it is an important 
relationship for the United States. My question is does Turkey 
see the United States as an important relationship for it 
because if it does, it just keeps spiting its nose and doing 
everything contrary to what a good relationship with us would 
mean.
    One final set of questions. You are familiar, Mr. 
Secretary, with the CAATSA legislation that passed the Senate 
98 to 2 and signed into law by President Trump in August 2017?
    Mr. Palmer. Yes, Senator.
    Senator Menendez. And does CAATSA have a mandatory 
provision sanctioning any significant transaction with the 
Russian military?
    Mr. Palmer. Yes, Senator, it does.
    Senator Menendez. Did Turkey take the S-400 system for 
delivery this summer?
    Mr. Palmer. Yes, sir.
    Senator Menendez. Is there any realistic scenario in which 
the purchase of an S-400 is not a significant transaction under 
the law?
    Mr. Palmer. Senator, that issue is currently under review 
as part of a deliberative process. I cannot get ahead of any 
decision by the Secretary of State with respect to sanctions 
under CAATSA.
    Senator Menendez. I did not ask whether the Secretary of 
State said he was going to sanction Turkey under CAATSA. I 
asked whether or not the purchase worldwide of an S-400 is not 
a significant transaction.
    Mr. Palmer. Senator, that determination has not been made 
as a matter of law.
    Senator Menendez. Wow. What a message we are sending in the 
world. That message undermines the actions of the Congress of 
the United States, which in an overwhelming bipartisan vote, 
sent to the President legislation to push back on Russia, 98 to 
2. If you start opening that door, you will have undermined the 
very essence of what the law has meant and you will be 
undermining the congressional intent because I am one of the 
authors of it. I understand what I meant and what others who 
joined with me to ultimately pass it meant.
    It is not a question of whether that is a significant 
transaction. That is a significant transaction. If the purchase 
the S-400 is not a significant military transaction from a 
country purchasing it from Russia, then nothing is. Then 
nothing is. And I simply cannot understand that answer.
    And at some point, you are all going to have to come up 
with an answer, including if it is the State Department's or 
the administration's legal view that such a transaction is not 
a significant transaction under the law, we need to hear it. 
The Congress of the United States needs to hear it, but you 
cannot hide under the guise that you are all--you have been 
thinking about this for some time. This is not the first time 
this question has been raised. You need to give us an answer, 
and we need to force an answer if you fail to give it to us 
because, at the end of the day, we need to send a global 
message about what is a significant transaction. And if the 
purchase of the S-400 is not a significant transaction, then I 
do not know what Senator Inhofe, the chairman of the Armed 
Services Committee; Senator Reed, the ranking member; Senator 
Risch; and myself, who all signed on to a public op-ed to try 
to get Turkey to go in a different direction--we made it very 
clear that all of our views on a bipartisan basis, that that is 
a significant transaction and is sanctionable under CAATSA. So 
if it is the administrations' view that it is different, we 
need to know.
    Thank you, Mr. Chairman.
    Mr. Palmer. Thank you, Senator.
    The Secretary has made clear that he is committed to 
implementing CAATSA. The CAATSA deliberations are multifaceted. 
They are complex, conducted on a case-by-case basis. The 
administration, of course, always considers the importance of 
maintaining CAATSA's credibility as a deterrent to Russian arms 
sales around the world. During the sanctions deliberations, 
those deliberations are, as I have noted, ongoing.
    Senator Menendez. And that is incredible. If you want to 
maintain the credibility of CAATSA, then you have got to find 
that the S-400 is a significant transaction. If you do not, 
then you have neutered the law, and the Congress should act 
appropriately therefore.
    Thank you, Mr. Chairman, for your courtesy.
    The Chairman. Thank you, Senator Menendez.
    Thank you to both of our witnesses for testifying today. We 
sincerely appreciate your patience with us. It has been long 
suffering, but we do appreciate it.
    For the benefit of the members, the record will remain open 
until Thursday evening for written questions for the record. 
And if the witnesses would, as quickly as possible, respond to 
those questions, they will be made part of the record.
    With that, the committee is adjourned.
    [Whereupon, at 5:30 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
